<html>
<title> - FAMILIES AND BUSINESSES IN LIMBO: THE DETRIMENTAL IMPACT OF THE IMMIGRATION BACKLOG</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



    FAMILIES AND BUSINESSES IN LIMBO: THE DETRIMENTAL IMPACT OF THE 
                          IMMIGRATION BACKLOG

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                          JUNE 17 AND 23, 2004

                               __________

                             Serial No. 96

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-287                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

JEFF FLAKE, Arizona                  SHEILA JACKSON LEE, Texas
MARSHA BLACKBURN, Tennessee          LINDA T. SANCHEZ, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           HOWARD L. BERMAN, California
CHRIS CANNON, Utah                   JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa
MELISSA A. HART, Pennsylvania

                     George Fishman, Chief Counsel

                   Art Arthur, Full Committee Counsel

                        Luke Bellocchi, Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             HEARING DATES

                                                                   Page
June 17, 2004....................................................     1
June 23, 2004....................................................    25

                           OPENING STATEMENT
                 June 17, 2004<greek-l>first date deg.

The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     2
The Honorable Steve King, a Representative in Congress From the 
  State of Iowa..................................................     4
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California............................................     5
The Honorable Linda T. Sanchez, a Representative in Congress From 
  the State of California........................................    13

                 June 23, 2004<greek-l>second date deg.

The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................    25
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................    50

                               WITNESSES
                 June 17, 2004<greek-l>first date deg.

The Honorable Eduardo Aguirre, Jr., Director, U.S. Citizenship 
  and Immigration Services, U.S. Department of Homeland Security
  Oral Testimony.................................................     6
  Prepared Statement.............................................    10

                 June 23, 2004<greek-l>second date deg.

The Honorable Prakash Khatri, Citizenship and Immigration 
  Services Ombudsman, U.S. Department of Homeland Security
  Oral Testimony.................................................    27
  Prepared Statement.............................................    30
Ms. Elizabeth Espin Stern, Managing Partner, Business Immigration 
  Practice Group, Shaw Pittman, LLC
  Oral Testimony.................................................    32
  Prepared Statement.............................................    34
Mr. Paul Zulkie, President, American Immigration Lawyers 
  Association
  Oral Testimony.................................................    42
  Prepared Statement.............................................    43

                                APPENDIX
               Material Submitted for the Hearing Record
                 June 17, 2004<greek-l>first date deg.

Backlog Elimination Plan submitted by U.S. Citizenship and 
  Immigration Services...........................................    59
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    74
Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress From the State of California.......................    75
Letter to U.S. CIS Director Eduardo Aguirre submitted by the 
  Honorable Zoe Lofgren..........................................    76
Prepared Statement of the Honorable Linda T. Sanchez, a 
  Representative in Congress From the State of California........    81
Letter to President George W. Bush and the Honorable Tom Ridge, 
  Secretary, U.S. Department of Homeland Security, submitted by 
  the Honorable Linda T. Sanchez.................................    83
Letter to Robert Bonner, Commissioner, Bureau of Customs and 
  Border Protection, U.S. Department of Homeland Security, 
  submitted by the Honorable Linda T. Sanchez....................    86
Prepared Statement of the Honorable Steve King, a Representative 
  in Congress From the State of Iowa.............................    88

                 June 23, 2004<greek-l>second date deg.

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    88
Letter from the American Immigration Lawyers Association (AILA), 
  submitted by Paul Zulkie.......................................    90
Letter to the Honorable Eduardo Aguirre, Jr., Director, Bureau of 
  Citizenship and Immigration Services (BCIS), submitted by Paul 
  Zulkie.........................................................    96
Response to Questions submitted by Rep. Anthony Weiner to the 
  Honorable Prakash Khatri.......................................    99
Response to Questions submitted by Rep. Anthony Weiner to Ms. 
  Elizabeth Stern................................................   100
Response to Questions submitted by Rep. Anthony Weiner to Mr. 
  Paul Zulkie....................................................   102

 
    FAMILIES AND BUSINESSES IN LIMBO: THE DETRIMENTAL IMPACT OF THE 
                          IMMIGRATION BACKLOG

                              ----------                              


                        THURSDAY, JUNE 17, 2004

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:07 p.m., in 
Room 2141, Rayburn House Office Building, Hon. John N. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    ``We applaud those immigrants who stand out, men and women 
who labored all their lives so that their children would be 
well-fed, families that went through great hardship yet kept 
their honor, their dignity, and their faith in God.''
    Those are the words of President Ronald Reagan, who the 
Nation bid farewell to last week. Today, the Subcommittee on 
Immigration, Border Security, and Claims will examine a quite 
different subject from our last oversight hearing. Instead of 
reviewing the tools needed to combat illegal human smuggling 
into the United States, we will examine the plight of those 
legal immigrants working through the immigration and petition 
process and those seeking to naturalize. Those aliens who 
follow the law and dutifully apply for immigration status with 
U.S. Citizenship and Immigration Services, or USCIS, should not 
be stranded in legal limbo while waiting for the 6.2 million 
petition backlog to be cleared. This is especially the case for 
those patiently waiting abroad for their legitimate immigration 
applications to be approved. Some families have been kept apart 
as alien relatives abroad have had to wait for USCIS to 
adjudicate the petition paperwork. In some cases, petitions sit 
in a pile for literally years, and applicants must periodically 
refile certain items, like fingerprints, as they expire. And 
when I talk about expiring, I mean the applications, not the 
applicants.
    American companies have also suffered. American 
multinationals file papers with USCIS to bring employees from 
abroad or to hire graduates of American universities. One must 
ask what incentive there is for aliens abroad to make legal 
applications for entry only to wait lengthy periods in the 
backlog.
    The immigration backlog also harms our national security. A 
recent General Accounting Office study describes how poor visa 
overstay tracking complicates efforts to ensure domestic 
security. Indeed, we have seen how 9/11 terrorists took 
advantage of backlogs, workload, and poor record checks to 
remain undetected and undisturbed in the U.S. A recent Nixon 
Center study indicates that the al Qaeda terrorist network has 
used and continues its strategies of using national immigration 
systems to place operatives. In fact, 7 percent of all 
applications processed result in an initial security or 
criminal hit of some sort. But if checks are not processed for 
years, dangerous aliens may roam free in our communities here 
in the United States.
    We must continue to be ever vigilant and current in all 
immigration processing so that we have readily accessible 
information on foreign travelers and workers who are in the 
United States. While the immigration backlog was current in 
fiscal year 1994, various subsequent immigration programs, such 
as the 245(i) programs and the expedited naturalization 
Citizenship USA program, have helped create and increase the 
backlog to its current state of over 6 million petitions. Some 
argue that the backlog is only half that size because half of 
the petitions are completed within 6 months. Others point to 
the 77 percent increase in the number of petitions filed with 
USCIS from 1993 to 2001 and inadequate funding.
    Many critics have placed the blame on USCIS tardiness in 
increasing fees to match requirements. Others point to 
bureaucratic and needless paper exercises, such as returns for 
evidence in the petition process. Still others point to 
``overfunded and underperforming'' data systems to help manage 
work flow.
    To solve these problems, the President has set a goal to 
reduce the backlog by fiscal year 2006 to a no-longer-than-6-
months response time on immigration petitions.
    Our primary guest today is the Director of the U.S. 
Citizenship and Immigration Services, the Honorable Eduardo 
Aguirre. He will be presenting the long-awaited USCIS plan to 
take control of adjudication backlogs. I appreciate the 
importance Mr. Aguirre has placed on this issue and eagerly 
look forward to his presentation today.
    At this time the Chair recognizes the Ranking Member from 
Texas, Ms. Jackson Lee, for the purposes of an opening 
statement.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and I 
believe that everyone will give 100 percent acclamation and 
affirmation that this is a very important hearing.
    The Honorable Barbara Jordan once said, ``When they ask 
what do we want, the simple question is America's promise.'' 
The ``we'' can be anyone. It can certainly be those of us who 
have come to this country from different walks of life, 
recognizing Director Aguirre, who has had his own personal 
story to tell. There are any number of ``we's'' but the 
question is America's promise is embedded in democracy and 
fairness and clear procedures and transparency. And so I would 
simply say that today should be a pronouncement of our 
recommitment to democracy and fairness and certainly 
transparency.
    As I look at a typical day at USCIS, I see 140,000 national 
security background checks, 80,000 calls at four national 
customer service centers, and maybe the ability to process 
80,000--or 30,000 applications. But what this does not reflect 
is the enormous backlog and frustration of families and those 
who are seeking legal access to legalization and status 
adjustment.
    What we don't see is a young lady who I heard from just 
about 72 hours ago, who said, ``I get about three or four 
letters, if you will, put out by computers, very smart 
computers, who continuously suggest, `Your fingerprints are not 
in.' '' Well, her fingerprints have been in. It has not yet 
been communicated to the computer, and she remains on the list 
of a very long, long list.
    And so I would say that all of us have a very personal 
interest in eliminating the immigration benefits applications 
backlog because we want to see America's promise work every 
day. Houston's backlog on benefits applications is one of the 
longest in the country, longer than Boston, Los Angeles, and 
San Diego. Approximately 50,000 people in Houston, in the 
Houston area, are waiting for the processing of an immigration 
benefit application. For some, the wait has been as long as 5 
years.
    Bianca Springer has a graduate degree in conflict analysis 
and resolution. Last week, as she and her husband, Jerry, sat 
in an office of the U.S. Citizenship and Immigration Service, 
she said that she should have pursued a degree in bureaucracy. 
She has been trying unsuccessfully to resolve issues around her 
immigration application since moving to Houston from Miami 18 
months ago, where she originally filed the paperwork. She sees 
no end in sight. She has not even been able to confirm that her 
files are at the Houston office.
    Again, this reflection of bureaucracy, Mr. Chairman, and to 
the witness, Director Aguirre, is not a reflection on staff 
that works hard every day. It is a reflection on the system, 
and it is a reflection particularly on securing the homeland 
and our capability of doing so.
    People also are experiencing difficulty in learning about 
the status of their applications. Mr. Al Rashid is a retired 
executive with Saudi Aramco, an energy company. In 2002, after 
taking an early retirement, he moved from Saudi Arabia to 
Houston with his wife, who is a U.S. citizen, and their infant 
son. Two years ago, more than $7,000 later, he still doesn't 
know his status. He has asked, ``I want to start a business. Am 
I going to be approved or not? Shall I pack up my family and go 
or stay?''
    New York is another place that is having serious backlog 
problems. The backlog of pending citizenship cases in New York 
exceeds 100,000 which is more than any other district in the 
country. A letter summoning Errol Taylor to be sworn in as a 
citizen on May 14 arrived at his Flatbush home more than a year 
after his interview and 2 years after he applied for 
citizenship. This was too late for Mr. Taylor, a hospital 
worker who had lived and worked in Brooklyn for decades after 
leaving Trinidad in 1975, because he had died in March.
    The costs and consequences of the delays go beyond personal 
heartache. Businesses that rely on foreign professionals are 
facing logistical headaches and added legal costs to maintain 
their workforces. Some came to me just a few days ago about the 
inadequacy now of H1-B, another legal status visa. Family 
members sponsoring a relative have died while the process 
dragged on. Senior citizens, 70, 85, 82, 90 years old, who are 
seeking their citizenship status, are too being delayed, maybe 
beyond their life span.
    Some immigrants have inadvertently lapsed into illegal 
illegality because work permits or other papers have expired. 
Part of the problem is that additional security checks have 
been implemented in reaction to 9/11. Before 9/11, the 
Government only ran security checks on some kinds of 
immigration applicants such as those seeking citizenship. Now 
every applicant must undergo security screening, which has 
caused the workload to bloom. Also, matches on FBI name checks 
cause substantial delays when paper files must be checked to 
determine whether benefits--whether the benefits applicant is a 
person in the FBI files. While name matches only occur in a 
small percentage of the applications, we've also seen a rise in 
the number of applications. FY 2001 was the peak year for the 
number of immigration and naturalization petitions filed, 7.8 
million, but we've seen these numbers go up. I would only argue 
that this is a time now for a pronounced benefits package to be 
bipartisan, to be truly committed by--committed to by the 
Administration, and, of course, to be implemented as quickly as 
possible.
    I realize that we are part, I hope, of the solution, 
meaning the United States Congress, and I realize, frankly, 
that we have a very large task. In the backdrop of the 9/11 
hearings and the report that will be coming out, there's enough 
blame for all of us. The tragedy of that occurrence, the loss 
of life, and the inadequate procedures that we all have come to 
understand make this hearing, Mr. Chairman, one of the most 
important in this United States Congress. I believe in securing 
the homeland, but you've heard me say it before: Immigration 
does not equate to terrorism, and we are a Nation of immigrants 
and of laws.
    Today, I hope that we will commit ourselves to those 
virtues, be able to secure the homeland, recognize the crisis, 
and address those who are in need of access to legalization 
with the human dignity and America's promise.
    I yield back my time.
    Mr. Hostettler. Thank you, Ms. Jackson Lee.
    The Chair now recognizes the gentleman from Iowa, Mr. King, 
for 5 minutes for purposes of an opening statement.
    Mr. King. Thank you, Mr. Chairman. I appreciate you holding 
this hearing today, and I look forward to Mr. Aguirre's 
testimony.
    I would just make several points here in reflection on some 
of the opening remarks and in anticipation of the testimony and 
the questions that we'll bring forward, and that is that--two 
points that I'm concerned about, and one of them is that we 
want to honor and respect the people who honor and respect our 
laws, and that means we need to expedite their applications 
consistent with our laws. That's one way that we can encourage 
people to follow the legal path to come into the United States 
as opposed to the illegal path. We need to do that without 
jeopardizing our homeland security and our national defense. 
All nations are nations of immigrants. All nations need to 
control their borders. This process that we're looking at here 
today has that in mind as well, and I believe it's important 
for us to consider the issue of amnesty and how that affects 
the overtaxation of the system if that policy should move 
forward.
    So those are the things I have in mind, and I think it's 
important that we--that we accelerate a legitimate, careful 
program of processing our people, and at the same time we can 
only do it at the rate that we can assimilate them into our 
society.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Hostettler. Thank you, Mr. King.
    The Chair recognizes the gentlelady from California, Ms. 
Lofgren, for 5 minutes for purposes of an opening statement.
    Ms. Lofgren. Thank you, Mr. Chairman and Ranking Member 
Jackson Lee, for holding this hearing, and I'd also like to 
thank the Director, Mr. Aguirre, for coming to join us today to 
go through the plan for the reduction of the backlog.
    Since I have been a Member of this Subcommittee, which, 
unfortunately, now goes over many years, I have endeavored to 
work on this issue with a variety of Commissioners and now the 
Director, because the backlog is a serious problem for real 
people. Most recently, 44 Members of Congress, bipartisan 
Members of Congress, including Subcommittee Members, 
Congresswoman Blackburn and Congressman Flake and Congressman 
Hart and Mr. Berman and Ms. Sanchez, wrote to you, Mr. Aguirre, 
talking about the severity of the backlog program in--problem. 
And in my home State of California, I think it's quite severe, 
and it goes--it runs the gamut from family members separated 
from each other to Nobel Prize winners who are stuck, and we 
need them here.
    So there are actual hardships that are being undertaken or 
experienced by American citizens, and also certainly our 
economy that is denied the best and brightest that are stuck 
outside the United States. I am frustrated that even today we 
are not fully implementing the technology that needs to be 
implemented. And I've said not only to you but to your 
predecessors that we can't just work harder, we need to work 
smarter in order to get ahead of this situation. I know that we 
are still issuing millions of paper I-94s. We should have a 
system that is entirely computerized, and I believe that you 
share that goal.
    I can recall a number of years ago asking how much money 
would be necessary to implement this because we don't need 
necessarily to design new systems. We need to acquire them and 
deploy them.
    So I am eager to hear your plan. We just got it this 
morning so I haven't had a chance to review it yet. But I'm 
eager to hear your comments and to pose any questions that your 
comments raise for us. And I would ask unanimous consent to 
submit my full statement for the record, Mr. Chairman.
    Mr. Hostettler. Without objection.
    Ms. Lofgren. I yield back.
    Mr. Hostettler. I thank the gentlelady.
    Now the introduction of our panelist: Mr. Eduardo Aguirre 
became the Director of U.S. Citizenship and Immigration 
Services on August 15, 2003. Prior to his appointment, he 
served the Administration as Vice Chairman and Chief Operating 
Officer of the Export-Import Bank of the United States. In the 
private sector, he became president of International Private 
Banking for the Bank of America and ran a highly profitable 
unit.
    Then-Governor Bush appointed Mr. Aguirre to the Board of 
Regents of the University of Houston System, and he served as 
its chairman from 1996 to 1998. Mr. Aguirre earned a bachelor 
of science degree from the College of Business Administration 
at Louisiana State University. He is a graduate of the American 
Bankers Association's National Commercial Lending Graduate 
School and was awarded an honorary doctorate at the University 
of Houston.
    Director Aguirre, I ask that you now stand and raise your 
right hand.
    [Witness sworn.]
    Mr. Hostettler. Thank you, Dr. Aguirre.
    Please let the record reflect that the witness responded in 
the affirmative, and you are recognized.

  TESTIMONY OF THE HONORABLE EDUARDO AGUIRRE, DIRECTOR, U.S. 
   CITIZENSHIP AND IMMIGRATION SERVICES, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Aguirre. Good afternoon. Thank you, Mr. Chairman, 
Ranking Member Jackson Lee, and Members of the Subcommittee. 
Today I will report to you on the progress that the U.S. 
Citizenship and Immigration Service, USCIS, has made in its 
initial 15 months and the ambitious goals that we will reach in 
the months and years ahead. The Backlog Elimination Plan, which 
was submitted to Congress yesterday, reaffirms our commitment 
to eliminating the backlog while enhancing national security 
and improving customer service. This commitment is not just one 
of words, but one of action. Since my appointment and 
confirmation as the first ever Director of USCIS, I have tasked 
our leadership to immediately review our processes, identify 
opportunities for streamlining and further improvement, and 
begin to implement meaningful change.
    To say that this has been a year of change for our agency 
would be an understatement of great proportions. In the past 15 
months, USCIS brought together components of the former INS to 
create a new, energized, cohesive agency with a single vision: 
``To provide the right benefit to the right person in the right 
amount of time, and prevent the wrong person from accessing 
immigration benefits.''
    You see, Mr. Chairman, I understand the importance of this 
vision and of the changes that we're making as I am a product 
of the immigration system. I came to this country from Cuba at 
the age of 15 years as an unaccompanied minor and eventually 
became a naturalized citizen of this great country. I have a 
sense of the high responsibility entrusted to me and the 
daunting challenge of fundamentally transforming the delivery 
of services by the U.S. immigration system. I appreciate 
probably better than most that we must restore public 
confidence in the integrity of America's immigration services. 
It is this fundamental mission that guides USCIS as it faces 
the challenges of a new era.
    Just as the backlog was created over time, there are no 
quick fixes. Only through our commitment and our perseverance 
will we be able to claim success.
    Thankfully, we have the opportunity, the leadership, and 
the talent to make an impact. By the end of 2006, we will 
eliminate the application backlog and achieve the 6-month cycle 
time that was promised by President Bush, while enhancing 
national security, and in so doing we will deliver on the 
President's vision of ``welcoming immigrants with open arms . . 
. not endless lines.''
    Let me note some accomplishments to date. During the short 
time I have been honored to lead the 15,000 men and women of 
USCIS, we have accomplished a great deal. Let me just cite a 
few examples.
    We have created a new Federal organization. We've 
naturalized over 650,000 new citizens. We have welcomed over 1 
million new immigrants. We've conducted over 35 million 
background security checks. We've initiated on-line case status 
and processing status updates. We've initiated on-line filing 
for eight application forms which represent over 50 percent of 
the potential total volume of benefit applications. We've 
created and began deployment of InfoPass, a Web-based 
information appointment system, which is now implemented in 
Florida, Los Angeles, and Dallas, dramatically reducing and 
eliminating lines outside of our offices. We've established the 
Office of Fraud Detection and National Security, and this week, 
of course, we've delivered a Backlog Elimination Plan to 
Congress.
    I'd like to bring up a slide of a typical day at USCIS. 
Let's see if the technology is up to speed. Here we go. Thank 
you.
    As Congresswoman Jackson Lee was mentioning, a typical day 
at USCIS can be viewed in this slide, and I'll just touch on a 
few. We do 140,000 national security background checks on a 
typical day. We receive over 80,000 phone calls at four 
national customer service centers. We get over 100,000 hits at 
our website on a daily basis. And we welcome 190 refugees and 
so forth and so on.
    The purpose of this slide is to make sure that we 
understand that on a daily basis our operation is very 
intensely involved with a huge amount of volume. We--I'm sorry. 
We have--we have a tremendous amount of business, and that is 
what we're trying to deal with as we implement our changes.
    Okay. I'm sorry. The backlog of applications is a serious 
problem and, until recently, a growing problem.
    Early in 2001. President Bush charged the INS, the old INS, 
with reducing the processing times for benefit applications to 
less than 6 months. He proposed funding of $500 million over 5 
years to achieve and maintain this ambitious goal.
    It is important to understand the magnitude of this 
challenge. Backlogs of immigration benefit applications began 
to grow during the 1990's. Overall, there was a 77 percent 
increase from fiscal year 1993 to fiscal year 2001. The primary 
factors contributing to the backlogs were a dramatic increase 
in applications received, delays in adjusting our fees, the 
time it takes to recruit, hire, and train adjudicators, and the 
lack of a comprehensive approach to monitoring, supporting, and 
maintaining timely processing.
    Let me show you in a slide, the backlog picture. The 
Backlog Elimination Plan was drafted in response to the 
President's initiative. However, the tragic events of September 
11, 2001, and the resulting focus on national security, 
including the NSEERS program and enhanced background checks on 
processing of all immigration benefit applications, posed 
additional challenges to achieving a 6-month cycle time 
standard for all applications.
    From this slide, you can see how the backlog grew 
significantly and steadily after 9/11. However, you can also 
see that we have recently crested the peak and are now making 
headway in the backlog. USCIS is now on a trajectory to meet 
our backlog elimination goals. I'd like to note that since 
December of 2003, we have reduced the backlog by over 360,000 
cases, and that's demonstrated on that slide.
    Let me take a moment to clarify for you what is backlog. A 
case that is filed today is considered pending, not backlog. We 
have set target cycle times for our applications. For most 
cases, including naturalization and adjustment of status, the 
cycle time should be 6 months. For some others, such as the 
employment authorization card, the target cycle time should be 
3 months. If a case is not adjudicated within the target cycle 
time, then it becomes part of the backlog.
    USCIS calculates the current backlog to be approximately 
3.7 million cases out of a total pending of about 6.1 million 
cases. Put another way, 60 percent of our pending cases are a 
backlog problem.
    Our Backlog Elimination Plan focuses on three objectives: 
achieving a high level of performance by establishing clear, 
concrete milestones and actively monitoring and managing 
progress toward these milestones; two, transforming business 
practices by implementing significant information technology 
improvements and identifying processing improvement to 
transform the current way of doing business; and, three, 
ensuring integrity by instituting comprehensive quality 
assurance measures.
    We fully realize that the increased funding requested in 
the budget alone will not be able--will not enable us to 
realize our goals. We must fundamentally change the way we 
conduct our business. We're aggressively working to modernize 
our systems and increase our capacity through the reengineering 
of processes, the development of implementation of new 
information technology systems, and the development of 
mechanisms to interact with customers in a more forward-
reaching manner.
    Given current data on the backlog, productivity, and 
workload, USCIS must achieve a 19.6% increase in production to 
achieve cycle time goals and eliminate the backlog by the end 
of 2006.
    In order to achieve these productivity increases, USCIS is 
reengineering our processes and better utilizing technology to 
achieve greater efficiencies. We're updating policies and 
procedures to streamline adjudications and increasing the 
percentage of cases completed at initial review by an 
adjudicator. We're managing production against milestones, 
beginning with collaboratively setting goals, reporting 
progress, and identifying additional improvement opportunities. 
And we're working cooperatively with the Office of the 
Ombudsman to test alternative processing approaches and new 
applications of proven off-the-shelf technology.
    I'd like to show a slide of reversing the trend. USCIS has 
already begun to show progress during the first 6 months of the 
fiscal year. Production is up. Pending and backlog figures are 
down. In this slide you can see the point in time when our 
completions began to exceed our receipts. This is fundamentally 
how we make headway in the backlog.
    We have begun to institute the first of several good-
government initiatives as part of our aggressive business 
redesign efforts. By the end of the month, we plan to publish a 
regulation to allow us to issue Employment Authorization 
Documents, known as EADs, for periods greater than 1 year. Over 
time this will enable us to eliminate the unnecessary 
repetition of applicants for renewed cards.
    We're also expediting the adjudications of simple 
applications. With green card renewals, we will utilize 
technology to search databases to provide critical information, 
such as status verifications and background checks, so that in 
this way the adjudication is a simple yes or no based on the 
information before the adjudicator.
    We're working to eliminate the need for unnecessary 
requests for evidence. For example, recently we issued guidance 
advising adjudicators that in most cases it's not necessary to 
request updates of financial information that was current at 
the time of filing. Other improvements requiring regulatory 
changes are being drafted. And many other improvements are 
coming.
    Maintaining national security is paramount. Let me be 
perfectly clear about one thing. Productivity gains will not be 
at the expense of our national security responsibilities. USCIS 
clearly understands the responsibility to the Department of 
Homeland Security, the Congress, the President, and the 
American people.
    From our point of view, compromising our national security 
is simply not an option.
    In addition to enhanced security checks, USCIS has 
established the Office of Fraud Detection and National Security 
to work with the appropriate law enforcement agencies to 
respond to national security hits on aliens who pose a threat 
and for identifying systemic fraud in the application process.
    This component will screen, identify, and refer cases 
involving suspected fraud and threats to public safety or 
national security to U.S. Immigration and Customs Enforcement--
of course, known as ICE--for field investigation and 
enforcement action.
    The next slide, please. I would like to think of our 
daunting task like climbing Mount Everest. It is a great 
challenge, but it can be done. It is also not a task for the 
naysayers. You need the right team and tools, a strong 
commitment, some patience, a lot of motivation, perseverance, 
and in my case, a healthy optimism. We have already reached our 
base camp and are well on our way. We have a clear vision of 
the top of the mountain and how we're going to get there.
    During our first year, USCIS stood up an organization of 
which I am very proud. We have established accountability in 
our leadership team and improved many of our operational 
processes. We have submitted a Backlog Elimination Plan and 
continue to strive to make further improvements. We will be 
measuring against milestones and providing quarterly updates to 
Congress on our progress toward those milestones.
    The progress that we have made and the reputation we have 
built over the past 15 months will provide the momentum for 
continued success in the months and years ahead.
    With the last slide, I'll conclude my remarks. I'm 
confident that we will reach our goal of 6 months for every 
case type at every office without compromising national 
security.
    Mr. Chairman, Ranking Member, this concludes my remarks, 
and thank you for the invitation to testify before this 
Committee, and I look forward to answering your questions. 
Thank you.
    [The prepared statement of Mr. Aguirre follows:]

               Prepared Statement of Eduardo Aguirre, Jr.

    Good afternoon Chairman Hostettler, Ranking Member Jackson Lee and 
Members of the Subcommittee. Today I will report to you the progress 
that U.S. Citizenship and Immigration Service (USCIS) has made in its 
initial fourteen months and the ambitious goals that we will reach in 
the months and years ahead. The Backlog Elimination Plan submitted to 
Congress this week reaffirms USCIS commitment to eliminating the 
backlog. This commitment is not just one of words, but one of action. 
Since my appointment and confirmation as the first-ever Director of 
USCIS, I have worked closely with the leaders in USCIS to immediately 
review our processes, identify opportunities for streamlining and 
further improvement, and begin to implement meaningful change.
    To say that this has been a year of change for this agency would be 
an understatement of great proportions. In the past fourteen months, 
USCIS has brought together components of the former Immigration and 
Naturalization Service (INS) to create a new, energized, cohesive 
agency with a single vision:

        ``Provide the right benefit to the right person in the right 
        amount of time, and prevent the wrong person from accessing 
        immigration benefits''

    USCIS is committed to building and maintaining an organization that 
provides immigration information and benefits in a timely, accurate, 
consistent, courteous, and professional manner. It is this fundamental 
mission that guides USCIS as it faces the challenges of a new era.
    The Backlog Elimination Plan focuses on three objectives:

        <bullet>  Achieve a high-level of performance by establishing 
        clear, concrete milestones and actively monitoring progress 
        towards these milestones;

        <bullet>  Transform business practices by implementing 
        significant information technology improvements and identifying 
        processing improvements to transform the current way of doing 
        business; and,

        <bullet>  Ensure integrity by instituting comprehensive quality 
        assurance measures.

    USCIS will increase its focus on information technology to ensure 
that long-term Backlog Reduction is sustained, customer service is 
improved, new fee for service business models are enabled, and a 
technology environment is deployed to support new processes and 
workflow aligned with the DHS mission and Presidential mandate for eGov 
standards.
    These objectives have started USCIS in the right direction and have 
begun to deliver improvements, but there is much more to be done. Just 
as the backlog was created over time, we must recognize that there is 
no quick fix to all our challenges--only through our commitment will we 
be able to claim success.
    Thankfully, we have the opportunity, the leadership, and the talent 
to make an impact. By the end of 2006, we will eliminate the 
application backlog and achieve six-month cycle times, and in doing so 
will deliver on the President's vision of ``welcoming immigrants with 
open arms . . . not endless lines.''

                        ACCOMPLISHMENTS TO DATE

    During the short time I have been honored to lead the men and women 
of USCIS, we have accomplished much. We have:

        <bullet>  Created a new organization and self-standing 
        structure with a leadership team;

        <bullet>  Re-energized and redirected the legacy INS benefits 
        workforce of 10,000 government and 5,000 contract employees:

        <bullet>  Created a customer-oriented culture incorporating 
        Dignity, Respect and Ingenuity as core values;

        <bullet>  Established a new Office of Citizenship;

        <bullet>  Launched the USCIS Website;

        <bullet>  Established separate goals within the DHS strategic 
        plan;

        <bullet>  Created a new Refugee Officer Corps;

        <bullet>  Streamlined the certificate of citizenship process 
        for adopted children;

        <bullet>  Naturalized 670,000 new citizens;

        <bullet>  Welcomed over one million new immigrants;

        <bullet>  Initiated on-line case status and processing status 
        updates;

        <bullet>  Initiated on-line filings for 8 applications forms, 
        representing over 50% of the total volume of benefit 
        applications annually;

        <bullet>  Created and began national implementation of a web-
        based information appointment system (InfoPass);

        <bullet>  Expanded the customer service line to overseas 
        callers;

        <bullet>  Revised the fee schedule;

        <bullet>  Initiated four pilot projects aimed at improving 
        customer service and reducing backlogs;

        <bullet>  Established the Office of Fraud Detection and 
        National Security to be responsible for working with the 
        appropriate law enforcement entities in responding to national 
        security hits on aliens who pose a threat and for identifying 
        systemic fraud in the application process; and,

        <bullet>  Revised the Backlog Elimination Plan that includes 
        measurable milestones to gauge progress toward backlog 
        elimination goals.

    All this has been accomplished in the context of the work we do 
every day:

        <bullet>  Process 140,000 national security background checks;

        <bullet>  Receive 100,000 web hits;

        <bullet>  Take 50,000 calls at our Customer Service Centers;

        <bullet>  Adjudicate 30,000 applications for immigration 
        benefits;

        <bullet>  See 25,000 visitors at 92 field offices;

        <bullet>  Issue 20,000 green cards; and

        <bullet>  Capture 8,000 sets of fingerprints and digital photos 
        at 130 Application Support Centers; and,

        <bullet>  Receive 450 Freedom of Information Act requests.

                        BACKLOG ELIMINATION PLAN

    The backlog of applications is a serious problem and until very 
recently, growing.
    Early in 2001, President Bush charged the INS with reducing the 
processing times for benefits applications to less than six months. The 
President proposed funding of $500 million to achieve and maintain this 
ambitious goal.
    It is important to understand the magnitude of this challenge. 
Backlogs of immigration benefit applications began to grow during the 
1990s. Overall, there was a 77% increase from FY 1993 to FY 2001. The 
primary factors contributing to the backlogs were a dramatic increase 
in the number of applications and petitions received, delays in 
adjusting our fees and filling positions to process this increasing 
number of applications, the lengthy amount of time it takes to recruit, 
hire and train adjudicators, and the lack of a comprehensive approach 
to monitoring, supporting and maintaining timely processing.
    The original Backlog Elimination Plan drafted in response to the 
President's initiative was intended to serve as the foundation for a 
renewed backlog elimination effort. However, the tragic events of 
September 11, 2001 and the resulting focus on national security, 
including the National Security Entry Exit Registration System (NSEERS) 
Program and enhanced background checks on processing of all immigration 
benefits applications, posed additional challenges to achieving a six-
month cycle time standard for all applications.
    Nevertheless, the USCIS is on track to meet its goals to eliminate 
the backlog by the end of 2006. The Backlog Elimination Plan will:

        <bullet>  Report on the current size of the application 
        backlog;

        <bullet>  Identify the next steps to eliminate the backlog and 
        achieve a six-month or less cycle time target for all forms by 
        the end of 2006;

        <bullet>  Establish annual production goals; and,

        <bullet>  Provide a plan to measure progress through quarterly 
        reports and on-line information available on each district 
        office and service center.

    USCIS defines the backlog as the number of cases that exceed their 
cycle time. Naturalization and adjustment of status, for instance, have 
a 6-month cycle time while applications for nonimmigrant workers, 
change of status, and employment authorization have shorter 3-month 
cycle-time targets.
    USCIS calculates the current backlog, based on cases exceeding 
these cycle times, to be approximately 3.4 million cases as of the end 
of 2003. The inclusion of Asylum Division cases raises the backlog to 
about 3.7 million cases out of a total pending of about 6.1 million 
cases.

                             THE WAY AHEAD

    We fully realize that the increased funding requested in the budget 
alone will not enable us to realize our goals. We must fundamentally 
change the way we conduct our business. We are aggressively working to 
modernize our systems and increase our capacity through the 
reengineering of processes, the development and implementation of new 
information technology systems, and the development of mechanisms to 
interact with customers in a more forward-reaching manner.
    Given current data on the backlog, productivity, and workload, 
USCIS must achieve a 19.6% increase in non-Asylum production to achieve 
cycle time goals and eliminate the backlog by the end of 2006. In 
addition, the Asylum Division must realize a 3% increase in production 
in order to achieve the same result.
    In order to achieve these productivity increases, USCIS will:

        <bullet>  Reengineer processes and automate manual workflow 
        processes to achieve greater efficiencies;

        <bullet>  Update policies and procedures to streamline 
        adjudications and increase the percentage of cases completed at 
        initial review by an adjudicator;

        <bullet>  Manage production against milestones--beginning with 
        collaboratively setting goals, reporting progress, and 
        identifying additional improvement opportunities; and,

        <bullet>  Work with the Office of the Ombudsman on pilot 
        projects to test alternative processing approaches and new 
        applications of proven off-the-shelf technology.

    USCIS has already begun to show progress in this direction during 
the first six months of this fiscal year. Production is up, pending and 
backlog figures are down. We have begun to make progress by instituting 
the first of several Good Government Initiatives designed to reduce the 
number of times an application is handled, and through the efforts of 
every employee rededicating himself or herself to the task at hand.
    USCIS has begun an aggressive process redesign effort in the 
following areas:
    Card Issuance--By the end of the month we plan to publish an 
interim final rule to allow ourselves to issue Employment Authorization 
Documents (EADs) for periods greater than 1 year. Over time this will 
enable us to eliminate the unnecessary repetition of applications for 
renewed cards.
    Expediting the adjudication of easy applications--With green card 
renewals we will utilize technology to search databases to provide 
critical information, i.e. status verifications and background checks, 
so that in this way the adjudication is a simple yes or no based on 
that information.
    Requests For Evidence (RFEs)--Recognizing the costs, of both time 
and human capital in the processing of RFEs, we have been working to 
eliminate the need for unnecessary RFEs. Some of this improvement has 
been accomplished by memoranda, such as the recently issued memorandum 
advising adjudicators that in most cases it is not necessary to request 
updates of financial information that was current at the time of 
filing. Other improvement requires regulatory changes that are being 
drafted.
    In the months ahead, USCIS will:

        <bullet>  Enhance data-sharing and inter-agency process 
        improvements to eliminate steps in the processes that add 
        little or no value;

        <bullet>  Modify regulations to clarify requirements for 
        adjudicators and for applicants;

        <bullet>  Reduce pending Asylum cases that have been likely 
        abandoned or overcome by other events;

        <bullet>  Use systems capabilities to run batch queries against 
        data systems rather than spending time manually checking 
        systems; and,

        <bullet>  Continue to manage production against targets.

    But we have further to go. The weeks and months ahead are key to 
continuing this positive trend and making the successes we have 
realized become the new baseline for the bureau rather than temporary 
blips on a production chart.
    USCIS will ensure that all customers are provided an opportunity to 
receive a decision within six months or less. However, we recognize 
that even after the backlog is eliminated, some cases may take longer 
than six months, such as those cases where security checks have 
indicated a possible significant terrorist risk or criminal activity.

                     MAINTAINING NATIONAL SECURITY

    But let me be perfectly clear about one thing. Productivity gains 
will not be at the expense of our National Security responsibilities. 
USCIS clearly understands its responsibilities to the Department of 
Homeland Security, the Congress, the President and the American people. 
Compromising on National Security is not an option.
    In addition to enhanced security checks, USCIS understands that 
maintaining national security and deterring fraud are critical elements 
of its mission. To process these workloads, USCIS has established the 
Office of Fraud Detection and National Security (FDNS) to be 
responsible for working with the appropriate law enforcement entities 
in responding to national security hits on aliens who pose a threat and 
for identifying systemic fraud in the application process.
    This component, in cooperation with U.S. Immigration and Customs 
Enforcement (ICE), will screen, identify, and refer cases involving 
suspected fraud and threats to public safety or national security to 
ICE for field investigation and enforcement action. Anti-fraud efforts 
will include developing standard operating procedures to aid field 
Adjudications staffs in identifying suspected fraud. These initiatives 
will better enable USCIS to identify applications that may involve 
fraud, deny benefits to aliens who commit fraud, and place those aliens 
in removal proceedings.

                               CONCLUSION

    USCIS is committed to this goal and will work cooperatively with 
our stakeholders, including Congress, to see it to its successful 
completion.
    During our first year, USCIS stood up an organization of which we 
are very proud. We have established a leadership team, improved many of 
our operational processes, and continue to strive to make further 
improvements.
    The progress that we have made and the reputation we hope we have 
built over the past fourteen months will provide the momentum for 
continued success in the months and years ahead.
    This concludes my prepared remarks. I thank you for the invitation 
to testify before this subcommittee and I would be happy to answer any 
questions.

    Mr. Hostettler. Thank you, Director Aguirre.
    At this point, out of order, without objection, the 
gentlelady from California, Ms. Sanchez will have 5 minutes for 
an opening statement.
    Ms. Sanchez. Thank you, Chairman Hostettler, and also 
Ranking Member Jackson Lee, for today's hearing. The issue that 
we're examining today, the immigration backlog and its 
detrimental impacts is an issue that my Democratic colleagues 
and I have said over and over again is critical--is a critical 
component to fixing our broken immigration system. We made 
backlog reduction one of the top priorities in the SOLVE Act, 
H.R. 4262, that was introduced in May, on May 4th, and I urge 
the Chairman to follow this hearing on reducing the immigration 
backlog with a markup of the SOLVE Act so we can make 
immigration backlog reduction the law.
    We need to reduce the backlog because the processing delays 
are keeping families apart for years and sometimes even 
decades. Thousands of immigrants follow the rules and submit 
their visa applications like they're supposed to, only to end 
up waiting for years to reunite with their spouses, children, 
or parents because of the backlog. One of the main reasons why 
immigrants come here illegally is to reunite with members of 
their family. And, simply put, the visa backlog is one of the 
main causes of illegal immigration in this country.
    And what is the current Administration doing about the 
backlog problem? If you've read the papers lately, you'd think 
their solution was to perform random immigration sweeps. Last 
week, there were several newspaper reports that more than 200 
immigrants were arrested in the Inland Empire in Southern 
California, close to my neck of the woods. According to 
reports, Federal agents were interrogating and arresting 
immigrants outside of supermarkets, restaurants, as they got 
off buses on their way to work, and even as they were 
stopping--they were even stopping cars at roadside checkpoints.
    Any person of Hispanic appearance or descent was a target 
of the sweeps. The agents stopped a Pasadena City College 
student legally in the U.S. on a student visa and interrogated 
him on the street about his immigration papers. The agents then 
drove the student home and forced him to produce his student 
visa papers to prove he was legal.
    In another incident, a Latino waitress named Lourdes 
Rangel, a U.S. citizen, witnessed men in white vans stopping 
cars and interrogating drivers. Some of the agents questioned 
her and demanded that she show them proof of her citizenship. 
These very extreme arrests do nothing to fix the current 
immigration system. The only thing that they serve to do is to 
create fear and panic in local communities.
    A school in Pasadena reported that 30 percent of the 
students skipped school after the reports were made public. 
Restaurants, stores, and doctors' offices were empty last week, 
and my office continues to receive phone calls about that. And 
many said--many doctors said that they were inundated with 
calls asking if it was safe to come by and get medical care or 
even to go and buy simple necessities at the supermarket.
    It's not really in question that the sweeps were based on 
racial profiling and not on any evidence that the particular 
arrestees were in the country illegally. The U.S. Bureau of 
Customs and Border Protection claims the sweeps were neither 
racial profiling nor an agency-wide policy. But I find it hard 
to believe that race didn't play a factor in the interrogations 
when 90 percent of the arrests were of Mexican nationals. 
Currently, MALDEF is investigating the sweeps to see if the 
sweeps violated the victims' due process rights or were 
unreasonable searches and seizures.
    Constitutional violations and random race-based arrests are 
not the way to deal with illegal immigration in this country. 
The Administration's $500 million initiative to reduce the visa 
backlog to a 6-month processing time by 2006 is an excellent 
idea, and I urge the President and his Administration to make 
sure that this idea becomes, in fact, a reality. Likewise, I 
urge the President to give the same priority to backlog 
reduction that he does in the efforts to deport hard-working, 
law-abiding immigrants, and even citizens.
    The last time Mr. Aguirre testified before this 
Subcommittee, we discussed how only $60 million in additional 
funds were proposed for the backlog reduction in the 
President's fiscal year 2005 budget proposal. This sum paled in 
comparison to the $281 million for enforcement programs in the 
President's budget proposal.
    We need to make visa backlog reduction a much higher 
priority. There are 6 million visa applications waiting to be 
processed. That equates to millions of separated families and 
the possibility for millions of immigrants to fall into illegal 
status.
    Processing these applications in a timely way is just as 
important as enforcement efforts to fixing our immigration 
system and making our borders safe and secure. I hope that this 
time next year Mr. Aguirre is testifying before this 
Subcommittee and telling us how successful the reduction plan 
is, that the backlog has already been dropped by 50 percent and 
will be at zero in 2006.
    I want to thank our witness for taking the time to come 
here and give us testimony before this Committee about what 
steps are being taken to produce a visa backlog program, and, 
Mr. Chairman, I'm also working on a letter to President Bush 
and Secretary Ridge expressing concern about the immigration 
sweeps in Los Angeles. The letter should be completed shortly, 
and I ask unanimous consent to submit that letter, as well as a 
letter from the Congressional Hispanic Caucus addressing the 
same issue, into the record for this Subcommittee hearing.
    Mr. Hostettler. Without objection.
    Ms. Sanchez. Thank you. I yield back my remaining time.
    Mr. Hostettler. I thank the gentlelady. The panel will now 
go to questions on a 5-minute basis.
    Director Aguirre, on your first day on the job as Director, 
what was the condition of the adjudication system you 
inherited? Would it be fair to say that it was dysfunctional?
    Mr. Aguirre. Mr. Chairman, I'm not sure that I would use 
that word. I think it was contrary to efficiency because after 
9/11, under the Immigration and--INS tenure, many of the 
adjudicators had to be redeployed to do tasks that were 
inherent toward national security, not toward the adjudication 
of cases. A case in point would be NSEERS program. A number--
hundreds of our adjudicators were redeployed to handle the 
NSEERS situation.
    Since I took over the operations, we worked our way to 
transfer the responsibility of the NSEERS program to ICE, and, 
therefore, we've been able to reclaim the adjudicators to do 
what they're supposed to do.
    Additionally, I think it's worthy to note that post-9/11, 
there was a significant concern by our adjudicators to 
adjudicate, just somewhat of a paralysis of fear that a mistake 
might be made and that zero tolerance may be in effect. We have 
empowered our adjudicators to make sure that they follow the 
rules, but also use their extensive experience and managerial 
access to make sure that they continue to process the cases.
    So dysfunctional, I don't think I would use that word, but 
inefficient, certainly I would. And I think our task has been 
to bring efficiency and effectiveness into the process without 
compromising the integrity of the system.
    Mr. Hostettler. Very good. Thank you. You've explained a 
lot about the backlog, but can you tell me more about the 
history of the backlog. Did not the backlog--was not the 
backlog created in large part as a result of new and large 
numbers of immigrant applications taking subsidiary of the 245 
program to allow mainly out-of-status aliens a chance to get a 
green card?
    Mr. Aguirre. Yes, Mr. Chairman. Of course, there is a cause 
and effect, as I think you're alluding to. There was a period 
of time a number of years ago where an amnesty program was in 
effect that allowed a number of people to come into a green 
card and then ultimately citizenship status, which in itself 
then created a new availability for demand for some of the 
products that we offer. And then that has simply mushroomed 
into a very large operation.
    What I think is significant to note is that before Congress 
decided to separate the responsibilities of service and 
enforcement, the typical Commissioner was faced with competing 
priorities, with allocation of human and monetary resources to 
either enforcement or service. Currently, we're able to focus 
and laser-focus our attention toward very basic services. We're 
here to reduce the backlog, improve customer service, and do it 
in an environment of national security. All of that is without 
being concerned with, as Congresswoman Sanchez was mentioning, 
the issue of enforcement. I'm sure she's directing her comments 
to the enforcement side of Homeland Security or the rest of the 
Nation because, of course, we do not have any enforcement 
authority or responsibility, other than if we identify a 
potential terrorist or somebody who is trying to defraud the 
system, we refer them to the enforcement side of the Government 
for appropriate action.
    Mr. Hostettler. And going along with that, does the backlog 
encourage aliens to file frivolous petitions? In other words, 
do legal aliens who want to stay permanently in the U.S. figure 
that it will take so long for CIS to adjudicate their case that 
they would find in some cases bogus claims to stay in the 
United States?
    Mr. Aguirre. There is some of that, and we're trying to--
through technology and otherwise, we're trying to identify 
frivolous applications so that they can be promptly adjudicated 
in the negative or, for that matter, low-risk applications to 
be adjudicated in the positive, as the case may be.
    Indeed, I think you're very much aware of the fact that the 
Immigration and Nationality Act is perhaps the most complex set 
of laws that our Congress has bestowed upon our Nation. And, 
therefore, we understand that the complexity of that problem 
lends itself to a lot of litigation opportunities for 
unscrupulous as well as scrupulous lawyers.
    Mr. Hostettler. Director Aguirre, you are anything if not 
diplomatic in your relations with Congress when you refer to 
the complexity of the INA and what we have bestowed upon the 
American people.
    At this the Chair recognizes the gentlelady from Texas, Ms. 
Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Thank you very much.
    I know that sometimes we have something called ``funny 
math,'' and I appreciate--I'm going to ask probably a funny 
math question. For a long time, we've been talking about 6 
million backlog, and I would be concerned that we be as 
accurate as we can be in the numbers. And so one of my first 
questions will be--and I want to just pursue this discussion 
for a little bit. One of my first discussions will be is that 
this very--I think very neat day in USCIS, as it reflects the 
numbers that we've been working with now for almost a year, and 
I know that some numbers that have been cited is about a 3.2 
million----
    Mr. Aguirre. 3.7.
    Ms. Jackson Lee. 3.7 million backlog, but the numbers that 
we have been working with have been 6 million. And I think it 
is important that before we pursue a line of questioning, that 
this be established. Benefits is, of course, a question that 
impacts people accessing legalization. So it is part of the 
constitutional process of giving people the opportunity to seek 
citizenship. And for those who may be negative about immigrants 
or immigrant laws or too many immigrants, this is the wrong 
place to be, because what we're suggesting is that there is a 
process to deal with people who are seeking legalization. And 
when we hear the word ``benefits,'' I know someone is somewhere 
looking at this and suggesting that there goes my job, there 
goes my opportunity. That is not the case.
    In certain instances, the individuals trying to access 
legalization are, in fact, creating jobs. Some of them are 
going against the tide of what we abhor, some of us, something 
called ``outsourcing,'' where jobs go overseas. Some of them 
are preventing those jobs from going overseas by being here and 
creating jobs or bringing the particular expertise here to the 
United States.
    And so in the course of not being able to move these 
individuals quickly, we're, in fact, putting a knife in our 
economy to a certain extent; we're, in fact, dividing families, 
children; and certainly what we're doing is we're not in any 
way, I believe, meeting America's promise.
    So my first question would be to the Director--and I thank 
you for your testimony--is about these numbers. The second 
question would be, if I may share this, is to hear more about 
the milestones that you're going to use to measure your 
progress in eliminating the benefits application backlog. I'm 
particularly interested in what you plan to do if these 
milestones are not achieved. And might you also include the 
question that my colleague raised, is I believe that this is 
going to take a sizable increase in funding. And the question 
is: Do we have not only the commitment that you have certainly 
offered with your expertise, but really the Administration 
prepared to bring forward a reasonable request that tracks this 
amount of change that you're expecting? And I guess my last 
point is you say that we're going to spend more time on what we 
call moderate to high risk. My concern is: Who's going to 
discern low and moderate, and are we really going to have a 
transparent and fair system when we begin to do that? And I 
thank you for listening to the litany questions, but I know 
that you're able and prepared.
    Mr. Aguirre. Congresswoman, as I get older, my memory gets 
shorter, so I hope I'm not going to miss anything. I am sure 
you will remind me if I do. Let me go to the numbers, if I 
will.
    If somebody files an application today, that's not part of 
the backlog. It doesn't become part of the backlog until 6 
months and a day later when we are not processing it in an 
efficient and effective fashion. The President has set 6 months 
as the appropriate cycle time. Actually, with time, we hope to 
improve upon that. But, therefore, I'm distinguishing the 
pending file from the backlog file, and we're saying that in 
the pending file we have 6.1 million--6.1 million applications 
pending, whereas 3.7 of them, or approximately 60 percent, are 
beyond 6 months.
    I think that's a very fundamental understanding. We cannot 
call--because, otherwise, we would never meet the backlog goal. 
Every day we'd be behind any kind of a backlog establishment. 
So that's a fundamental difference, and, therefore, that's 
where we're working on both the backlog as well as the pending 
applications. Now----
    Ms. Jackson Lee. Milestones that you're going to use to 
measure your progress.
    Mr. Aguirre. We have multiple milestones, and what we're 
doing is we're managing application by application, we're 
managing office by office, service center by service center, 
almost adjudicator by adjudicator. We have established 
management systems today that were just simply not in place 
before. And we're using some of our technology systems to allow 
us for timely assessment on where we are.
    If we should miss any of our milestones--and, in fact, I 
predict that we will be missing milestones here and there--
we're now in a position to redeploy our internal resources to 
address those shortcomings that may come up. In other words, if 
one particular city finds itself behind the eight ball in terms 
of milestones, it could be because it's a small city and people 
are on maternity leave or may have taken excused absence for a 
long period of time, bringing down the percent of the 
personnel. We are then looking to other offices where there is 
a certain amount of flexibility and redeploying human resources 
to be able to respond to that situation. So from a milestone 
standpoint, the most important thing for me is that it's a 
management tool that allows us to deal with the unexpected.
    We will be reporting to Congress, as I mentioned in my 
comments, on a quarterly basis. Therefore, you'll be able to 
see whether or not, along with us, whether or not we're on 
target and what we're doing about it. And the money.
    Ms. Jackson Lee. The money and deciphering low risk from 
high risk.
    Mr. Aguirre. Follow the money. Quite frankly, 
Congresswoman, I really do believe that our budget has been 
very carefully crafted, and that my challenge lies not in 
taking more money and figuring out what to do with it--it's 
more a challenge of making my staff working, as it was 
mentioned earlier by Congresswoman Lofgren, working smarter not 
harder. I am very, very comfortable that the budget that has 
been put forth is adequate to serve our needs. And if I felt 
otherwise, I would tell you.
    Mr. Hostettler. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Iowa, Mr. King, for 
5 minutes.
    Mr. King. Thank you, Mr. Chairman, and recognizing we have 
a vote coming up across the street, I'll try to move through 
here quickly.
    First of all, I would pose the question to Mr. Aguirre: 
Does the United States of America have any record or any 
history of inadvertently or not legally deporting U.S. citizens 
to other nations by mistake?
    Mr. Aguirre. Congressman, I'm sorry. I'm just not equipped 
to answer that question. I'm not in the law enforcement 
business, so I wouldn't really know. I'd be happy to look into 
that and see if we can respond to you.
    Mr. King. But if that happened, wouldn't it be reasonable 
that those people would come back before you for readmittance?
    Mr. Aguirre. Well, if someone was deported inappropriately, 
then I suppose it would come back to us to verify the 
naturalization of the individual, and we would then respond 
accordingly.
    Mr. King. Does that happen?
    Mr. Aguirre. I just don't know, sir.
    Mr. King. Okay. And I never hear of that happening, and 
that is why I took the opportunity to ask that question. And 
what sparked the question was the testimony of Ms. Sanchez that 
there are people that don't show up for work or for medical 
care or for education because there's been activity on the part 
of the INS in the region, which concerns me if people don't 
show up, then it would indicate that either they were being 
unjustly adjudicated or maybe they were illegal. So I would 
just ask unanimous consent to submit a rebuttal to those 
opening remarks of Ms. Sanchez to the record and then make a 
point to Mr. Aguirre.
    This is a complete document, and you've made your point 
very clear, and I appreciate that. I like it when I can 
understand it in black and white. And I hope we can come back 
and visit this maybe in a year and see how things are going, 
and then in 2 years and see that it's completed. But for 2006, 
does that mean the first day or the last day?
    Mr. Aguirre. Congressman, the President's commitment and 
promise of the $500 million over 5 years ends on September 
2006. And it is our focus and our goal to get to that date in 
eliminating the backlog on that day or before. And that's--
that's what it is.
    Mr. King. The fiscal year. Thank you for that 
clarification, Mr. Aguirre, and your testimony. I appreciate it 
very much.
    Mr. Chairman, I yield back.
    Mr. Aguirre. Thank you, sir.
    Mr. Hostettler. I thank the gentleman.
    The Chair will now recess the Subcommittee for a series of 
three votes. Director Aguirre, will you be able to hang around 
for about another half an hour for Members to come back?
    Mr. Aguirre. Nothing could make me happier, sir. 
[Laughter.]
    Mr. Hostettler. Diplomacy. Diplomacy. Thank you.
    We are recessed.
    [Recess.]
    Mr. Hostettler. The Subcommittee will come to order.
    Director Aguirre, I apologize for your wait. The half-hour 
was a little longer than a half-hour, and I apologize for that.
    The Chair now recognizes the gentlelady from California, 
Ms. Lofgren, for 5 minutes for questions.
    Ms. Lofgren. Thank you, Mr. Chairman, and thank you, 
Director, for your testimony. And I was mentioning to Mr. Smith 
as we were walking back from the vote that I don't want you to 
take this personally because we have heard promises about 
backlogs many, many, many times, and it's engendered a certain 
skepticism on the parts of the Members of Congress, and it's 
not about you. It's just how many times can the football be 
taken away from Charlie Brown. So here are some questions I 
have.
    Mr. Aguirre. I used that same metaphor the other day.
    Ms. Lofgren. Aha. I'm interested in some very specific 
issues that I think could help smooth processing in important 
ways, and I've mentioned this in the past. I actually believe 
that ultimately immigrants and nonimmigrants will have or 
should have their cases, both in the case of nonimmigrant 
applications or applications for permanent residents, be filed 
by whatever biometric is used because then you won't end up 
with duplications of names and it would save time.
    It's my understanding that the agency is now electronically 
gathering signatures in most cases, which is a big improvement, 
and I want to give you credit for that, and that we are also 
electronically taking photographs, which is an improvement, and 
I want to acknowledge that.
    However, I think we are still not retaining the 
fingerprints, and we are still--or if I'm wrong, you tell me, 
but we have had cases in my office where the fingerprints age-
out. I don't dispute the need to get a new criminal review 
through the FBI. What I've never understood is why we need a 
new set of fingerprints, because the reason why we get the 
fingerprints is they're immutable.
    I was led to believe that it's because the FBI does not 
have--explain--is what I've been told, is my understanding 
correct or incorrect on this?
    Mr. Aguirre. Congresswoman, that was then, this is now.
    Ms. Lofgren. Okay.
    Mr. Aguirre. We started storing and retaining the 
fingerprints a number of months ago. And, therefore, those who 
would have come before us before that date will have to 
continue to come back because fingerprints would have----
    Ms. Lofgren. I see. So we're going to see the tail end, but 
that's going to go away.
    Mr. Aguirre. Absolutely.
    Ms. Lofgren. I see.
    Mr. Aguirre. The issue was a storage capacity from a 
biometric standpoint. We have resolved that issue, and 
everything that we take in now is stored electronically in 
perpetuity.
    Ms. Lofgren. Very good. I have a question on your 
improvement initiatives. You're talking about precertification, 
and that's an interesting concept, and I think a promising one, 
on page 8. I'm interested if any progress has been made on 
precertification beyond the business sector. And I'm 
particularly interested in the science and academic sector. I 
think I mentioned this the last time you were here, and I know 
we did to Secretary Ridge and Secretary Powell. But we have 
very high-powered scientists, both doctoral students as well as 
professors, who travel frequently to scientific conferences, 
and if they can't go, they'll go to Oxford instead of Stanford. 
And we want those people, we want those hotshots here. Because 
whenever--if they're from a part of the world that we're 
suspicious about, they need to be cleared. None of them object 
to that, but the problem is that they have to be cleared every 
time they come in and out, and so it takes a long time. And I 
see a need of collaboration between the State Department, your 
agency, and Homeland Security, to make sure that, you know, 
once you've investigated somebody and you know it's okay, that 
we can somehow give preclearance and smooth that out for these 
scholars.
    Do you think that could be examined?
    Mr. Aguirre. It is being examined, Congresswoman, and let 
me just draw the distinction between the apple and the orange, 
if I could.
    The precertification that you were referring to is a 
precertification of employers so that IBM doesn't have to 
demonstrate every time----
    Ms. Lofgren. Right. No, I understood that, but I grabbed 
the name to make my point.
    Mr. Aguirre. I appreciate that. Perhaps you're making 
reference to people that are coming here as visitors and----
    Ms. Lofgren. Right, where they're students, where they're 
O's.
    Mr. Aguirre. Okay. Well, the O's and the P's are quite 
different from those who are coming here for--on a nonimmigrant 
basis. The bottom line is that we recognize that this is a 
problem and that people are choosing not to come to our country 
because of the difficulty of coming here.
    Ms. Lofgren. Right.
    Mr. Aguirre. And I'm participating with Secretary Ridge----
    Ms. Lofgren. Very good.
    Mr. Aguirre.--who's inviting us to look for ways to make it 
better.
    Ms. Lofgren. If I could, just one final question. I know my 
time is up, but in looking at the backlogs, the elimination 
milestones, I noticed--sometimes I think if we just focused on 
a few things that cause problems when they don't work, it would 
give us time. And one of those, to wait 11 months for a reentry 
permit or 3 months for advanced parole is inevitably going to 
cause problems because you can't plan the funeral, I mean, or 
the death, and so then somebody gets stuck, and then their 
family calls the Congress Member and then we call you and you 
have to respond. If there were just a way to ease that, this 
whole mass of work would disappear. And I'm wondering if you've 
done that kind of functional analysis. You want to get all the 
backlog done, but the lack of some of these things just 
inevitably creates a whole mess of problems so that you might 
really get a bang for your buck on specific elements.
    Have you done that kind of analysis?
    Mr. Aguirre. Yes, ma'am, we have. I cannot respond to the 
particular one that you're referring to, but we have done 
extensive reengineering analysis to determine which are the 
processes that will give us the best bang for the buck, 
quickest bang for the buck, and compare them to something else 
and something else. I think you're absolutely right. We're not 
going to be able to do everything at once. We're going to have 
to take priorities, and we're doing just that, not to the 
exclusion of everything else but to the level of attention.
    You know, I like to think we're smart, and we're trying to 
solve this problem one big chunk at a time, if possible, as 
opposed to just all little ones at a time. We have very, very 
good people working on this, and I think we have found the 
numbers to begin to work in our favor.
    Ms. Lofgren. I see my time has expired, and I don't want to 
abuse the Chairman's indulgence. I did have one question on the 
chief information officer. Have you filled that?
    Mr. Aguirre. Ma'am, we have. We have always had a chief 
information officer. The previous one was on--I'm not sure of 
the technical terms--temporary or interim basis. We have 
Tarrazzia Martin who has come to us from the Chief Information 
Officer in the Department of Homeland Security, and she is now 
working full-time to address the issue of information.
    Ms. Lofgren. Thank you very much.
    Thanks, Mr. Chairman.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the Ranking Member, Ms. Jackson 
Lee, for a closing statement.
    Ms. Jackson Lee. I thank the Chairman very much. I want to 
thank Congresswoman Lofgren for some of the very pointed 
questions that she asked, and as well, Congressman Berman's 
office, his apologies, because he was scheduled to be at 
another meeting, and Congresswoman Sanchez as well offered a 
very important statement that I hope that we'll be working on.
    I wanted to congratulate you for the Ombudsman that you 
have. I hope and look forward to scheduling him because I think 
in the course of this new major effort, getting him to be seen 
and heard in places outside the Beltway may be very important 
inasmuch as he reflects on how your interagency--intra-agency 
is able to work more effectively together. And my point is--and 
if we can dialogue after this hearing in the next week and days 
as we look at this. I'm a little concerned about the money 
question because there is an increase of funds available for 
backlog reduction from the $100 million level, it was, to about 
$160 million. And it's about a 60 percent increase. But, 
frankly, we have a daunting job. I think it's important that if 
you're conveying messages, that you take back to the 
Administration and you will tell them, you know, get the 
convener or conveyor of the message, don't convey, or to 
destroy you, the messenger. But I think it's important when you 
come here that we be very honest with you. I don't think this 
is going to be enough money, particularly when you've been 
gracious enough to say that you are shipping people around and 
you may want to use Peter and Paul in different locations. I 
can, frankly, tell you that the Texas center is, you know, at a 
high peak and also probably at a very shrill point right now 
with overworked staff. And so let me just say, Mr. Chairman, 
I'm going to be looking at drafting a letter about funds. I 
think--I'm not sure if Congresswoman Sanchez, maybe joining her 
if that was her point and I may have missed it. But, in any 
event, I believe that we're going to have shortfalls, and I'm 
also going to be looking at this question of shifting, not in 
any way believing that there's not good intention. I just know 
that there's just so much that you can get out of in this 
instance a turnip, and I don't consider any of the employees 
such, but the metaphor just came to me.
    So I'm very concerned about how much you can get out of 
those hard-working employees, and for those who are listening 
that represent employees, hard-working employees, I just want 
them to be able to have all the resources that they need.
    And the last point, Mr. Chairman, is most of us come from 
arts cities, and if you've ever heard a shrill voice, it's the 
Houston Grand Opera or the New York Symphony, when they can't 
get their talent here. And so we've been having a backlog on 
those J visas, and I would hope that when we talk about 
benefits that we sort of look at those in a keen manner, and 
I'm saying J. I meant to say P. But they've all got alphabet--
I'm like you. I'll leave it on those visas that categorize 
professional, doctors, lawyers, entertainers, our wonderful 
violinists and operatic artists. This is a crisis, and we just 
got through dealing with the physician at the Texas Medical 
Center, one of many. So I would appreciate it, Mr. Chairman, if 
these points can be put on the Director's plate for a response 
and discussion.
    I yield back. Thank you.
    Mr. Hostettler. I thank the gentlelady.
    Before I bring the hearing to a close, I'd like to mention 
that this hearing is actually the first of two hearings. Next 
week at 4 p.m. on Wednesday, we will hear from the Department 
of Homeland Security Ombudsman to give his report on the 
backlog as required by the Homeland Security Act.
    Director Aguirre, the Committee, the Subcommittee very much 
thanks you for being here today, for your insight, for your 
service, and that of the folks at CIS, and wants you to realize 
that we are here to help. And, finally, we apologize for the 
air-conditioning situation and keeping you too long today.
    The Subcommittee's work being done, we are adjourned.
    [Whereupon, at 3:04 p.m., the Subcommittee was adjourned.]


    FAMILIES AND BUSINESSES IN LIMBO: THE DETRIMENTAL IMPACT OF THE 
                          IMMIGRATION BACKLOG

                              ----------                              


                        WEDNESDAY, JUNE 23, 2004

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:50 p.m., in 
Room 2141, Rayburn House Office Building, Hon. John Hostettler 
(Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    Vania Carvalho contacted my office with the kind of problem 
I hear all too often--about someone who is trying to do the 
right thing and follow the law by filing the right papers, and 
getting caught in a bureaucratic nightmare. Vania came to the 
U.S. with her mother when she was 13 years old on a Portuguese 
passport, but when her mother married someone from my district, 
her family filed I-130 papers in February 2001 so she could 
become a permanent resident. She is still waiting for her green 
card.
    This is why 2 years ago Congress created the Office of the 
Ombudsman in the Homeland Security Act--to make sure that 
someone is fighting to ensure that U.S. Citizenship and 
Immigration Services process immigration applications in a 
timely and fair manner.
    As Members of this Committee mentioned at last week's 
hearing, legal immigration processing delays send the wrong 
message to everyone, especially when we are trying to combat 
illegal immigration. According to Congressional Research 
Service, 7.8 million immigration and naturalization 
applications were received in 2001, up from 5.9 million in 
2000. The annual receipts since the 9/11 tragedy have stayed in 
the 7 million range. In the year since its creation, USCIS has 
begun to report progress in reducing the backlog. It is 
reported that 5.1 million immigration cases were pending in 
April 2003, and a year later, this April, the number was 
reduced to 4.8 million.
    Last week, this Subcommittee received the USCIS's blueprint 
for further reducing the application backlog so all 
applications meet the President's target of a 6-month cycle by 
fiscal year 2006. No one wants USCIS to succeed more than the 
Members of this Subcommittee.
    This week we will hear the DHS Ombudsman provide his 
reaction to USCIS's plan and his own ideas on backlog 
reduction. Further, we will hear from private sector attorneys 
representing both family and business clients on what they 
think of the plan and provide further suggestions on how to get 
the job done and reduce the backlog.
    But before that, I have one observation from last week's 
hearing: For one, despite the difficulties of a large-scale 
merger comparable to joining together the largest corporations 
of America, it is apparent that USCIS is cutting into the 
application backlog created by its predecessor agency. In fact, 
I am happy to have received word it has reduced the immigration 
backlog by hundreds of thousands of petitions since the 
beginning of the year.
    Although USCIS is a better and more efficient organization 
than its predecessor agency, it has inherited a backlog that 
has grown with each new immigration program passed by Congress, 
including the Nicaraguan and Central American Relief Act of 
1997, the Haitian Refugee and Immigrant Fairness Act of 1998, 
the American Competitiveness and Workforce Improvement Act of 
1998, and a similar law in 2000--both dramatically increased H-
1B caps--and the LIFE Act of 2000, which provided for new and V 
and K visa categories, and multiple extensions of 245(i).
    Another issue I was also interested to hear about was 
broached by our witness last week, USCIS Director Aguirre. He 
believed that fraudulent or bogus petitions were adding 
significantly to the backlog, and that immigration attorneys 
used bogus petitions to delay removals. Director Aguirre stated 
that USCIS is developing technology to inhibit such behavior.
    His testimony also noted that the tragic events of 
September 11, 2001 forced USCIS to commit significant 
additional resources to national security checks on applicants. 
I am glad to hear that security concerns remain a top priority 
for USCIS when I hear of cases like that of Nuradin Abdi, who 
was charged last week with plotting to bomb a shopping mall in 
Columbus, Ohio, and with receiving asylum through a bogus but 
successful application.
    The quarterly progress reports that USCIS has promised this 
Committee will ensure that we have an accurate picture of the 
Agency's progress in attacking the backlog. I am anxious to 
hear what ideas our witnesses have to reduce the backlog 
further.
    Without objection, all Members' opening statements will be 
entered into the record, and the Chairman will reserve the 
right to recognize the Ranking Member for an opening statement 
when she arrives.
    Without further delay, I want to introduce our witnesses 
today.
    The Honorable Prakash Khatri was appointed by Secretary Tom 
Ridge in July 2003 to serve as the first U.S. Citizenship and 
Immigration Services Ombudsman at the Department of Homeland 
Security. He has extensive experience in the area of 
immigration law, having spent the past 20 years representing 
individuals and companies in immigration proceedings and 
related matters. In his 5 years as manager of immigration and 
visa processing for Walt Disney World in Florida, Mr. Khatri 
traveled to U.S. consular posts in more than 18 countries. At 
Disney, he developed and implemented an automated, high-volume 
visa processing system and other innovations that reduced 
unnecessary paperwork and improved efficiencies relating to 
handling employee visa applications.
    Mr. Khatri was admitted to the Florida State bar in 1984 
and at the age of 22 was the youngest attorney in the State 
bar's history. He earned his bachelor's and juris doctor 
degrees from Stetson University.
    Elizabeth Stern is managing partner of the Business 
Immigration Practice Group at Shaw Pittman, LLC. She represents 
clients in a variety of industry sectors in midsized businesses 
to Fortune 500 companies. Ms. Stern has previously testified 
before this Committee in 2001 on the restructuring of the 
Immigration and Naturalization Service.
    Ms. Stern was selected as one of the 75 best lawyers in the 
District of Columbia by Washingtonian Magazine. She is also a 
board member of the Bar Association of the District of 
Columbia.
    Ms. Stern graduated from the University of Virginia with 
juris doctor and bachelor degrees.
    Paul Zulkie is the president of the American Immigration 
Lawyers Association. He is the author of Immigration Compliance 
in Employment and Business, which analyzes employer sanctions, 
enforcement and business-related visa issues. In addition, he 
is a regular lecturer at national legal education seminars and 
has published several articles in nationally distributed 
publications. He has been named a leading practitioner in the 
field of immigration law by The Best Lawyers in America. Mr. 
Zulkie is a 1977 graduate of the University of Illinois College 
of Law.
    At this time before, we begin testimony, it is the practice 
of this Committee to administer the oath to all witnesses. Will 
you please stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Hostettler. Please let the record reflect that the 
witnesses responded in the affirmative.
    Before the Chair recognizes Mr. Khatri for 5 minutes, I 
would like to recognize the fact that Mr. Khatri's family is 
here, and if they would like to stand, we would be glad to 
recognize them so you can be thoroughly embarrassed. Thank you 
for being here. Thank you for all your service.
    Also we would like to note for the record that his report 
came to Congress one week earlier than required by statute, 
which is very good for Government work.
    Mr. Khatri, you now have 5 minutes for an opening 
statement.

  TESTIMONY OF THE HONORABLE PRAKASH KHATRI, CITIZENSHIP AND 
  IMMIGRATION SERVICES OMBUDSMAN, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Khatri. Thank you, Mr. Chairman. Good afternoon, 
Congressman King and Congresswoman Lofgren. My name is Prakash 
Khatri, and I have the honor of serving as the first 
Citizenship and Immigration Services Ombudsman at the United 
States Department of Homeland Security.
    As a naturalized citizen myself, I have a deep appreciation 
for this Nation's immigration history. I believe that the 
United States still represents the ``golden door'' for people 
around the world who share the American dream and who want to 
contribute to the cultural richness and economic strength of 
this country. I am truly honored to serve as the first 
Citizenship and Immigration Services Ombudsman and to have the 
opportunity to repay a small amount of the priceless gift that 
immigration has been to my family and me.
    Since my appointment on July 28, 2003, I have worked 
closely with my fellow leaders at the Department of Homeland 
Security in identifying opportunities for recommending 
meaningful changes to the existing immigration services system. 
I have been encouraged in these efforts by the commitment of 
Secretary Tom Ridge and Deputy Secretary Jim Loy to solve many 
of the problems that have plagued the legal immigration system. 
In addition, I have worked with my colleagues at U.S. 
Citizenship and Immigration Services, USCIS, and they have 
embarked on a series of pilot programs to test some of the 
recommendations made by my office.
    Before I go into detail about these recommendations, let me 
step back a moment and discuss the mission of my office. We 
have three primary functions as outlined in section 452 of the 
Homeland Security Act of 2002. First, the Ombudsman's Office 
assists individuals and employers in resolving problems with 
USCIS. In addition, we identify areas where individuals and 
employers are having problems in dealing with USCIS with an eye 
toward developing systemic changes that will benefit citizens 
and immigrants across the board. Finally, we propose changes in 
the administrative practices of USCIS in an effort to avoid and 
mitigate problems and hopefully to eliminate them once and for 
all.
    In fulfilling the statutory mandate, I am committed to 
keeping an open mind with respect to innovative solutions, and 
I will not accept the status quo. The recommendations from my 
office will promote national security and the integrity of the 
legal immigration system; they will increase efficiencies in 
administering citizenship and immigration services; and they 
will primarily focus on welcoming immigrants while reducing the 
problems encountered by individuals and employers seeking legal 
benefits under our laws.
    I approach this task in a holistic manner, identifying 
opportunities broadly, while assigning priorities in order to 
maximize significant, short-term results. In the first 10 
months of my tenure, I have focused my efforts and 
recommendations primarily on changes to existing policies and 
procedures rather than on recommending new regulatory or 
statutory solutions. This approach has resulted in the rapid 
implementation by USCIS of pilot programs aimed at immediate 
and dramatic benefits. In the upcoming year, I will introduce 
additional recommendations of this nature, but will 
increasingly focus on formulating broader recommendations that 
will require more time-intensive regulatory, statutory and/or 
infrastructure modifications.
    Let me outline the most pervasive and significant issues 
which I have identified to date: First, prolonged processing 
times or backlogs; second, limited availability of case status 
information to applicants and beneficiaries; third, immigration 
benefit fraud, which contributes to processing delays; fourth, 
insufficient standardization in processing among the different 
USCIS district offices and regional service centers; and last, 
inadequate technology and facilities.
    Of the issues identified, clearly the most pervasive 
problem faced by USCIS is the prolonged processing times or 
backlogs. In the first few weeks I quickly realized that two-
thirds of the volume of work generated from the six fee-based 
forms used in three key processes. Thus, I focused on these 
three areas, and I recommended three specific initiatives 
designed first to streamline family-based immigrant processing; 
second, to reengineer the green card replacement process; and 
three, to streamline employment-based immigrant processing.
    I discussed these recommendations in depth in my first 
annual report to Congress, copies of which have been provided 
to the Subcommittee and have been submitted as my written 
testimony for the record.
    In response to these recommendations from my office, USCIS 
has developed and implemented four corresponding pilot 
programs. My office is committed to monitoring these new 
programs to determine their effectiveness at solving the 
underlying problems, and we hope that the positive new 
practices can be expanded quickly to improve immigration 
services nationwide.
    I would like to highlight one particular new and innovative 
pilot project being tested by USCIS in Dallas. The current 
process of adjudicating applications for green cards for 
immediate relatives of U.S. citizens is undergoing a dramatic 
transformation. The pilot project is testing one of my 
recommendations whereby a process that currently takes from 4 
months in some jurisdictions to 3 or more years in others now 
will take less than 75 days from application to receipt of a 
green card.
    This is quite significant. This will be accomplished in a 
way that will not only enhance security by reducing fraud, 
ineligible applicants and temporary interim documents, it will 
also increase efficiency by reducing the amount of time from a 
few hours of processing in some jurisdictions because of the 
extended backlogs to as little as 1 hour of processing time.
    This is highly significant. It will dramatically increase 
customer service by reducing the waiting times and virtually 
eliminating all applications for interim benefits. This will be 
a substantial savings for many applicants. For many of these 
applicants, this program could result in lower total fees 
because many applicants would no longer have to pay for interim 
benefit applications such as employment authorization or travel 
permits.
    The pilot program began in May, and we expect that as we 
celebrate our Independence Day on July 4 in a little over a 
week, the first immigrants will start receiving their green 
cards under this new program in Dallas. It is the commitment of 
Secretary Ridge and Deputy Secretary Loy to backlog reduction 
and the true spirit of cooperation exhibited by USCIS that 
needs to be recognized for this effort.
    In addition to developing recommendations and preparing the 
first annual report to Congress, I faced the challenge of 
establishing a brand new office and laying the groundwork for 
its effectiveness in the future. After identifying office 
space, hiring and training our initial staff, our office 
created an information collection and processing system in the 
Ombudsman's Office. This system will provide automated data 
collection and tracking of customer complaints and concerns, 
allowing for more efficient identification of the systemic 
changes needed for the efficient and secure delivery of 
immigration services.
    I have devoted a substantial amount of time to meeting with 
key stakeholders. I have visited over 20 USCIS facilities 
around the country, encouraging input from local managers and 
staff. I have also met with a wide variety of nongovernmental 
stakeholders, including individuals, community-based 
organizations, business leaders, immigration advocates, and 
members of the bar.
    Over the last 10 months as Ombudsman, I have kept in mind 
the sentiments of President Bush when he said ``as a Nation 
that values immigration and depends on it, we should have 
immigration laws that work and make us proud.'' Although 
considerable progress has been made to that end during the 
course of the last year, much remains to be done. Continued 
diligence is required on the part of my office and USCIS. Our 
shared goal is the creation of a more efficient, secure and 
responsive method for providing immigration services that 
respect the dignity and value of individuals while 
simultaneously protecting us against those who seek to do us 
harm.
    This concludes my prepared remarks. I thank you for the 
invitation to testify before this Subcommittee, and I would be 
happy to answer any questions. I also would like to thank 
Congresswoman Jackson Lee, the Ranking Member.
    Mr. Hostettler. Thank you, Mr. Khatri.
    [The prepared statement of Mr. Khatri follows:]

                  Prepared Statement of Prakash Khatri

    Good afternoon Chairman Hostettler, Ranking Member Jackson Lee, and 
Members of the Subcommittee. My name is Prakash Khatri, and I have the 
honor of serving as the first Citizenship and Immigration Services 
Ombudsman at the United States Department of Homeland Security.
    As a naturalized citizen myself, I have a deep appreciation for 
this nation's immigration history. I believe that the United States 
still represents the ``golden door'' for people around the world who 
share the American Dream and who want to contribute to the cultural 
richness and economic strength of this country. I am truly honored to 
serve as the first Citizenship and Immigration Services Ombudsman and 
to have the opportunity to repay a small amount of the priceless gift 
that immigration has been to my family and me.
    Since my appointment on July 28, 2003, I have worked closely with 
my fellow leaders at the Department of Homeland Security--DHS--in 
identifying opportunities for recommending meaningful changes to the 
existing immigration services system. I have been encouraged in these 
efforts by the commitment of Secretary Tom Ridge and Deputy Secretary 
Jim Loy to solve many of the problems that have plagued the legal 
immigration system. In addition, I have worked with my colleagues at 
U.S. Citizenship and Immigration Services, and they have embarked on a 
series of pilot programs to test some of the recommendations made by my 
office.
    Before I go into more detail about these recommendations, let me 
step back a moment and discuss the mission of my office. We have three 
primary functions, outlined in Section 452 of the Homeland Security Act 
of 2002.

        <bullet>  First, the Ombudsman's office assists individuals and 
        employers in resolving problems with USCIS--that is, U.S. 
        Citizenship and Immigration Services.

        <bullet>  In addition, we identify areas where individuals and 
        employers are having problems in dealing with USCIS, with an 
        eye towards developing systemic changes that will benefit 
        citizens and immigrants across the board.

        <bullet>  And finally, we propose changes in the administrative 
        practices of USCIS in an effort to avoid and mitigate problems.

    In fulfilling this statutory mandate, I am committed to keeping an 
open mind with respect to innovative solutions, and I will not accept 
the status quo. The recommendations from my office will promote 
national security and the integrity of the legal immigration system; 
they will increase efficiencies in administering citizenship and 
immigration services; and they will primarily focus on welcoming 
immigrants while reducing the problems encountered by individuals and 
employers seeking legal benefits under our laws.
    I approach this task in a holistic manner, identifying 
opportunities broadly, while assigning priorities in order to maximize 
significant, short-term results. In the first 10 months of my tenure, I 
have focused my efforts and recommendations primarily on changes to 
existing policies and procedures rather than on recommending new 
regulatory or statutory solutions. This approach has resulted in the 
rapid implementation by USCIS of pilot programs aimed at immediate and 
dramatic benefits. In the upcoming year, I will introduce additional 
recommendations of this nature, but will increasingly focus on 
formulating broader recommendations that will require more time-
intensive regulatory, statutory and/or infrastructure modifications and 
thus must be able to be implemented within the budgetary resources of 
USCIS.
    Let me outline the most pervasive and significant issues that I 
have identified to date:

        <bullet>  prolonged processing times;

        <bullet>  limited availability of case status information to 
        applicants and beneficiaries;

        <bullet>  immigration benefit fraud, which contributes to 
        processing delays;

        <bullet>  insufficient standardization in processing among the 
        different USCIS district offices and regional service centers; 
        and

        <bullet>  inadequate technology and facilities.

    Of the issues identified, clearly the most pervasive problem faced 
by USCIS is the prolonged processing times or ``backlogs.'' In the 
first few weeks, I quickly realized that two-thirds of the volume of 
work is generated from the six fee-based forms used in three key 
processes. Thus I focused on these three areas and I recommended three 
specific initiatives designed to 1) streamline family-based immigrant 
processing, 2) reengineer the ``green card'' replacement process, and 
3) streamline employment-based immigrant processing.
    I discuss these recommendations in depth in my first annual report 
to Congress, copies of which have been provided to this subcommittee 
and have been submitted as my written testimony for the record.
    In response to these recommendations from my office, USCIS has 
developed and implemented four corresponding pilot programs. My office 
is committed to monitoring these new programs to determine their 
effectiveness at solving the underlying problems, and we hope that the 
positive new practices can be expanded quickly to improve immigration 
services nationwide. I would like to highlight one particular new and 
innovative pilot project being tested by USCIS in Dallas. The current 
process of adjudicating applications for ``green cards'' for immediate 
relatives of United States Citizens is undergoing a dramatic 
transformation. The pilot project is testing one of my recommendations 
whereby a process that currently takes from four months in some 
jurisdictions to as much as three or more years in others, now will 
take less than 75 days from application to receipt of a ``green card.'' 
This will be accomplished in a way that will:

        <bullet>  enhance security by reducing fraud, ineligible 
        applicants and temporary interim documents,

        <bullet>  increase efficiency by reducing the amount of time 
        from a few hours of processing in some jurisdictions to as 
        little as one hour of processing time, and

        <bullet>  dramatically increase customer service by reducing 
        the waiting times and virtually eliminating applications for 
        interim benefits. For many applicants, this program could 
        result in lower total fees because many applicants would no 
        longer have to pay for interim benefit applications such as 
        employment authorization or travel permits.

The pilot program began in May and we expect that as we celebrate our 
Independence Day in a little over a week, the first immigrants will 
start receiving their green cards under this new program in Dallas. It 
is the commitment of Secretary Ridge, Deputy Secretary Loy to backlog 
reduction and the true spirit of cooperation exhibited by USCIS that 
needs to be recognized for this effort.
    In addition to developing recommendations and preparing the first 
annual report to Congress, I faced the challenge of establishing a 
brand new office and laying the groundwork for its effectiveness in the 
future. After identifying office space, hiring, and training our 
initial staff, our office created an information collection and 
processing system in the Ombudsman's office. This system will provide 
automated data collection and tracking of customer complaints and 
concerns, allowing for more efficient identification of the systemic 
changes needed for the efficient and secure delivery of immigration 
services.
    I have also devoted a substantial amount of time to meeting with 
key stakeholders. I have visited over 20 USCIS facilities around the 
country, encouraging input from local managers and staff. I have also 
met with a wide variety of non-governmental stakeholders, including 
individuals, community-based organizations, business leaders, 
immigration advocates, and members of the bar.
    During my tenure as CIS Ombudsman over the last 10 months, I have 
kept in mind the sentiments of President Bush when he said ``[a]s a 
nation that values immigration and depends on it, we should have 
immigration laws that work and make us proud.'' Although considerable 
progress has been made to that end during the course of the last year, 
much remains to be done. Continued diligence is required on the part of 
my office and USCIS. Our shared goal is the creation of more efficient, 
secure and responsive methods for providing immigration services that 
respect the dignity and value of individuals while simultaneously 
protecting us against those who seek to do us harm.
    This concludes my prepared remarks. I thank you for the invitation 
to testify before this subcommittee, and I would be happy to answer any 
questions.

    Mr. Hostettler. The Chair recognizes Ms. Stern for the 
purpose of an opening statement.

   TESTIMONY OF ELIZABETH STERN, MANAGING PARTNER, BUSINESS 
         IMMIGRATION PRACTICE GROUP, SHAW PITTMAN, LLC

    Ms. Stern. Mr. Chairman, distinguished Members, last week 
before this Subcommittee, Director Aguirre introduced the 
backlog elimination plan, indicating that USCIS has at last 
crested the peak and expressing the Agency's commitment to 
attain a realistic time frame for immigration processing. I 
believe the plan is excellent, and focus my remarks today on 
building from this proposal and adding a commercial 
perspective.
    The underlying problem is that the current time frames are 
completely devoid from the reality of the users' needs. In the 
business sector, we see many examples of the debilitating 
impact of these delays. A recent study by eight renowned 
associations indicate that visa delays alone are responsible 
for some $31 billion in lost dollars to U.S. businesses.
    For backlog reduction to succeed, USCIS must infuse a 
commercially driven approach to the effort. As detailed in my 
statement, five key areas are essential: a clear mission with 
unambiguous adjudication standards; an effective communication 
and training program; application of IT and risk management to 
streamline processes; and uncompromising commitment to quality 
assurance and proper resource allocation.
    The mission is now clear; the ambiguity lingers in the 
Agency's adjudication criteria. In recent years the field has 
increasingly implemented inconsistent standards. Companies and 
families have been subjected to RFEs requesting proof that is 
not required by the statute or the regulations.
    Similarly troubling is the reliance on external sources for 
interpretation. Some field offices have routinely used 
Webster's dictionary to augment their definition of key 
standards. To fill the void, the Agency must establish explicit 
and transparent parameters for each immigration category. These 
national standards must then be communicated and enforced 
throughout the management chain and in all field offices. USCIS 
staff must be trained on all categories and have electronic 
access to relevant guidance. Intra-agency communications and 
training are vital to counter the ``deer in the headlights'' 
syndrome that the field has exhibited since 9/11.
    Only with ongoing and specific direction from the Agency's 
leadership and from the Ombudsman can this negative outlook be 
transformed so that the field can successfully surmount 
bureaucratic inefficiency and a daunting backlog.
    External communications are equally necessary. The Agency's 
user database should be dynamic with usable milestone tracking 
as opposed to formalistic references to data processing times. 
E-mail communications of official decisions should augment 
paper notices in all cases, not just when a premium processing 
fee is paid.
    In addition, the adjudication process must be reengineered 
to reduce cycle time while maximizing accuracy. Managers should 
perform basic triage by determining if incoming petitions 
warrant intensive scrutiny, or if the case should be handled 
more routinely.
    IT enhancement is unquestionably a part of the solution. 
There is no reason why the Agency cannot maintain the type of 
smart software that allows express couriers like FedEx or DHL 
to track packages as they move point to point in the delivery 
process.
    Furthermore, it is crucial to achieve quality control. Top-
down management techniques, firm lines of authority, and clear 
allocation of responsibility are essential at each level in the 
Agency. Consistent adjudication must be the norm with required 
reporting to headquarters when backlogs exceed the stated time 
lines.
    Measurable progress will reduce the need for the Agency to 
rely on the Agency's $1,000 premium processing fee, so this 
becomes a supplement, not a surrogate for timely processing.
    And end-product review, an action item in the Agency's 
plan, is critical to ensure the field adjudicates cases fairly. 
Finally, as new immigration programs are launched, an analysis 
of whether current resources suffice to meet new demands is 
essential. Both HR and budgetary allocations must be addressed 
in advance.
    In conclusion, our diversity has been the very lifeblood of 
this country. We must be conscious of the fact that the United 
States does not exercise a monopoly on the best and the 
brightest. We are already losing talent to our neighbors 
abroad. The commitment of Congress and the Administration to 
eliminating the backlog is essential to stem that tide. The 
Agency's plan recognizes that our country's immigration policy 
encompasses two overarching principles, facilitating entry of 
the eligible, and barring entry to those who pose a threat to 
our populace. Those two goals are inextricably linked. Security 
and service are components of the same machine. Neither can 
function unless the other one is working properly.
    Bottom line, if we do not advance service, we cannot 
advance security. The former INS was dismantled to launch a 
separate agency fully dedicated to service. USCIS was empowered 
by Congress and the President to confirm America's promise to 
foreign nationals seeking residency and citizenship within our 
borders. A commercial goals-oriented approach is essential to 
success. With pragmatism, the goal articulated by Director 
Aguirre last week, ``to provide the right benefit to the right 
person in the right amount of time,'' is attainable. I thank 
you.
    Mr. Hostettler. Thank you, Ms. Stern.
    [The prepared statement of Ms. Stern follows:]

              Prepared Statement of Elizabeth Espin Stern

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hostettler. The Chair recognizes Mr. Zulkie for an 
opening statement.

             TESTIMONY OF PAUL ZULKIE, PRESIDENT, 
            AMERICAN IMMIGRATION LAWYERS ASSOCIATION

    Mr. Zulkie. Thank you, Mr. Chairman and distinguished 
Members of the Subcommittee.
    I am Paul Zulkie, president of the American Immigration 
Lawyers Association, and I am honored to be here today 
representing AILA at this hearing. AILA is an immigration bar 
association of more than 8,000 attorneys who practice 
immigration law. The association applauds this Committee's 
interest in the effects of backlogs and your understanding of 
their importance.
    Through no fault of their own, families remain separated, 
businesses cannot acquire the workers they need, and doctors 
with life-saving skills are stranded abroad. My written 
testimony contains numerous examples of how United States 
citizens, families, and American businesses have been hurt by 
these backlogs. I would like to highlight two of these cases 
for you this afternoon.
    A woman from Rwanda who witnessed the torture and killing 
of her parents and siblings applied for asylum 7 years ago and 
has yet to be so much as scheduled for an interview. She 
suffers from post-traumatic stress disorder and lives in 
constant fear of being sent back to her native country. She was 
brought here from a refugee camp by a trafficker who attempted 
to enslave her into prostitution, but because she never 
received an interview and has been uncertain of her future 
here, she never went to the police with information about this 
sex trafficker. The evidence is now lost, and this perpetrator 
is still at large.
    A second example, one of the top 10 U.S. medical centers 
had to lay off one of its best surgeons because USCIS was 
taking 5 months to renew his work authorization card even 
though the Agency's own regulations require that these cards be 
processed within 90 days. The hospital, the surgeon, and his 
patients all suffered from his forced unavailability.
    These backlogs impact real people, real businesses. No one 
is immune. This is why the search for a solution must include 
an honest assessment of the magnitude of the problem as well as 
the remedies proposed by USCIS.
    Let me begin with our definition of backlogs. The time that 
a case spends on the shelf with no review by an adjudicator is 
what we would term the ``primary backlog,'' but there is also a 
``secondary,'' a hidden backlog.
    A case becomes part of the secondary backlog when a 
security agency simply fails to respond to USCIS in a timely 
manner or when an adjudicator requests additional evidence. Any 
meaningful backlog reduction plan must address the secondary 
backlogs as well. AILA welcomes the efforts of Ombudsman Khatri 
to develop creative new approaches to the processing of benefit 
applications, and we do look forward to working with him in the 
future.
    Unfortunately, not all recent USCIS initiatives have served 
to decrease the backlogs. In fact, some have been setbacks. 
USCIS recently announced a new initiative called Decision At 
First Review, addressing the proliferation of complex demands 
for documentation issued by its own personnel. Frequently, the 
documentation requested was already provided, was not relevant 
to the application at hand, or was necessitated by the sheer 
length of time the application has sat on the shelf. The new 
Agency guidance encourages summary denials of the application 
in lieu of request for documentation. This does, in our 
opinion, no more than shift parts of the primary backlog from 
where it is counted to an office where it will not be counted, 
the Administrative Appeals Office. That is not backlog 
reduction, that is hiding the backlog.
    Mr. Chairman, AILA believes the time has come to 
acknowledge the 800-pound gorilla in the room. No matter how 
many initiatives and innovations USCIS undertakes, in the end 
it is all about resources. The Administration believes that 
with a little more ingenuity and a little better management, 
the backlogs can be brought under control. This Agency needs 
more money to do its job, and the funding needs to come from 
direct congressional appropriations, not increased user fees.
    A myth has developed that immigration processing should be 
entirely funded by filing fees. The truth is fee-based funding 
is nothing more than a giant Government-endorsed pyramid scheme 
always on the brink of collapsing under its own weight. The 
Agency is in the constant situation of using new filing fees to 
pay for the adjudication of applications filed in previous 
years.
    In conclusion, Mr. Chairman, AILA believes that a fresh 
look should be taken at what resources are really needed, and 
that money be authorized and appropriated by Congress to do the 
job right. Thank you.
    Mr. Hostettler. Thank you, Mr. Zulkie.
    [The prepared statement of Mr. Zulkie follows:]

                   Prepared Statement of Paul Zulkie

    Mr. Chairman and distinguished Members of the Subcommittee, I am 
Paul Zulkie, President of the American Immigration Lawyers Association 
(AILA). I am honored to be here today representing AILA to testify on 
``Families and Businesses in Limbo: the Detrimental Impact of the 
Immigration Backlog.''
    AILA is the immigration bar association of more than 8,000 
attorneys who practice immigration law. Founded in 1946, the 
association is a nonpartisan, nonprofit organization and is an 
affiliated organization of the American Bar Association (ABA). AILA 
takes a very broad view on immigration matters because our member 
attorneys represent tens of thousands of U.S. families who have applied 
for permanent residence for their spouses, children, and other close 
relatives to lawfully enter and reside in the United States. AILA 
members also represent thousands of U.S. businesses and industries that 
sponsor highly skilled foreign professionals seeking to enter the 
United States on a temporary basis or, having proved the unavailability 
of U.S. workers, on a permanent basis. Our members also represent 
asylum seekers, often on a pro bono basis, as well as athletes, 
entertainers, and foreign students.
    Each day, AILA members confront the many problems that result from 
the backlogs. These problems are of major concern to families, 
businesses and communities nationwide. Through no fault of their own, 
families remain separated, businesses cannot acquire the workers they 
need, doctors with life saving skills are prevented from entering the 
country, skilled professionals who are sought by American business to 
create American jobs remain stranded abroad . . . and these examples 
could go on and on.
    Backlogs not only harm the people directly caught in their web, 
they undermine public trust in the immigration system. AILA applauds 
this subcommittee's interest in the effects of backlogs and its 
understanding of their importance.
    I hope in my testimony to document the problem and propose 
solutions that require the commitment of both the United States 
Citizenship and Immigration Services (USCIS) and Congress.

                          WHAT IS THE BACKLOG?

    Before we discuss the impact of backlogs and lengthy processing 
times, or how to best address them, we need to define them. Director 
Aguirre of the USCIS has provided one definition, based on cycle times. 
That is a valid view from a government operations perspective. But we 
need to look at this issue from the user's viewpoint. A processing time 
is the time from when the application arrives at the agency until a 
final decision is reached and the benefit is either granted or denied. 
For the sake of this discussion, we will treat multi-step processes as 
though they were separate applications.
    For example, the current processing time for an adjustment of 
status application--the final step in the green card application 
process--is 26 to 29 months at the service centers. This does not mean 
that an adjudicator spends 26 months reviewing and considering a case. 
Indeed, that process is measured in minutes or hours. Instead, it means 
that the case sits on a shelf for 26 months until an adjudicator picks 
it up and begins to consider it.
    The time that that case spends on the shelf with no review by an 
adjudicator is what we would term the ``primary backlog.''
    However, the story does not end when the adjudicator picks up the 
case and begins to consider it. Security checks first must be 
performed.\1\ Depending on the type of check, most can be cleared 
within 72 hours. However, in enough cases to be noticeable, a ``hit'' 
occurs or the security agency simply fails to get back to USCIS in a 
timely manner. Usually, the ``hit'' is caused by the person's name 
being similar to the name of someone with a problem (this is a 
particular problem with some common names), and eventually will be 
cleared. These cases become part of a ``secondary backlog,'' which we 
also refer to as the ``hidden backlog'' because the agency usually does 
not account for this delay in its processing time reports.
---------------------------------------------------------------------------
    \1\ AILA supports security checks as an important tool to enable 
our government to identify and pursue the tiny handful of intending 
immigrants and visitors who wish to do us harm, and separate them from 
the overwhelming majority who wish only to contribute to this country 
and build a better life for themselves and their families.
---------------------------------------------------------------------------
    A case also becomes part of the secondary or hidden backlog when 
the adjudicator requests additional evidence. If the adjudicator does 
not reach a decision when initially reviewing the case, but instead 
asks for more documentation, additional time is added to the process. 
Depending upon how much documentation is requested (a request asking 
for 45 different items of sometimes obscure documentation has not been 
uncommon), this exchange can add considerable time to the process.
    The secondary backlog also includes the little-discussed but 
increasingly important Administrative Appeals Office (``AAO''). For 
reasons that I will detail later, an unintended consequence of one of 
USCIS' initiatives may be to shift more cases to an already-bursting 
AAO. While the AAO's backlog is rarely counted in evaluating USCIS 
performance, its increasing importance requires attention to its 
already critical backlog.
    Any meaningful backlog reduction plan must address the secondary 
backlogs as well as the primary ones, or public confidence in the 
system will continue to erode.

                  WHAT IS THE IMPACT OF THE BACKLOGS?

    The U.S. immigration system allows long-term, work-authorized 
statuses in two situations: compassionate circumstances where we might 
be literally saving a person's life by offering the protection of our 
borders, or circumstances in which an American citizen or permanent 
resident with a family or business interest in a person petitions on 
that person's behalf. Examples abound of where the purposes underlying 
this system are undermined or even defeated by the backlogs. For 
instance:

        <bullet>  A Rwandan woman who witnessed the torture and killing 
        of her parents and siblings applied for asylum seven years ago, 
        and has yet to be so much as scheduled for an interview. She 
        suffers from post-traumatic stress disorder, and lives in 
        constant fear of being sent back to Rwanda. She had been 
        brought here from a refugee camp by a trafficker who attempted 
        to enslave her into prostitution. But because she never 
        received an interview and has been uncertain of her future 
        here, she never went to the police with information about this 
        sex trafficker. The evidence is now lost, and this perpetrator 
        is still at large.

        <bullet>  A Sales & Marketing Vice President for a U.S. owned 
        Fortune 500 company is in charge of Latin American accounts, 
        and oversees multi-millions of dollars in exports from the 
        United States to that region. He has had an application for 
        adjustment of status to permanent residence pending since April 
        2002, and must regularly renew simple travel permissions in 
        order to travel to perform his job. In 2003, when processing 
        times for the travel permissions slipped to seven months, he 
        had to cancel many trips, thus interfering with his company's 
        export pipeline. For this year, he filed over five months ago, 
        and still has six weeks left on his travel permit, but his 
        company is worried that he may not receive his new permit in 
        time. Between the backlog on the permanent residence 
        application and the backlog on travel permissions while his 
        permanent residence application is pending, his company is at 
        constant risk of disruption of its international trade.

        <bullet>  One of the top ten U.S. medical centers had to lay 
        off one of its best surgeons because the USCIS was taking 5 
        months to renew his work authorization card, even though USCIS' 
        own regulations require that these cards be processed within 90 
        days. The hospital, the surgeon and his patients all suffered 
        from his forced unavailability.

        <bullet>  More than two years ago, a specialty cook in 
        Manhattan was granted permanent residence by an immigration 
        judge. Even though the gentleman is, by law, a permanent 
        resident, DHS has been unable--despite extensive efforts by his 
        attorney--to provide him with a green card or other evidence of 
        his status. He lost his job, and is unable to find another, 
        because he does not have evidence of his status.

        <bullet>  A Brazilian married to a United States citizen had an 
        approved immigrant petition (the first stage of the green card 
        process), and filed an application to adjust status to 
        permanent residence in New York some two years ago. Like so 
        many Americans, she and her husband moved during this waiting 
        period. She dutifully submitted a change of address to the 
        official address for such changes, and also sent two confirming 
        letters to the New York office of what was then INS. She 
        inquired at the USCIS customer service 800 number, but on her 
        third inquiry was told that she had ``used up'' her maximum 
        allowance of two inquiries, and would not be able to inquire 
        again. Unfortunately, while she was prohibited from inquiring, 
        she received a notice denying her case due to failure to appear 
        for an interview. Her failure resulted from the agency sending 
        her appointment notice to her old address, notwithstanding her 
        efforts to notify the agency of her change of address. She is 
        attempting to reopen her case, but now is in a position in 
        which she would be barred from reentry if she were to travel, 
        and she has a sick parent in Brazil.

        <bullet>  A Canadian applicant for permanent residence, after 
        already waiting seven months for a simple travel permission, 
        learned that his brother had fallen ill. Although, to their 
        credit, the local USCIS office made every effort to persuade 
        the service center to issue the permission, it did not come 
        until 2\1/2\ weeks later. Unfortunately, the brother had died 
        in the meantime and this gentleman missed not only seeing his 
        brother one last time, but also missed his funeral.

        <bullet>  A highly-rated nephrologist has been waiting outside 
        the U.S. since December 2002 for a decision on his application 
        for a waiver of a foreign residence requirement, 
        notwithstanding his specialization--much-needed in the United 
        States--in a field with unusually high mortality rates.

        <bullet>  A young nurse from Mexico works for a Massachusetts 
        family with a severely handicapped child. The child's doctors 
        have been amazed at the child's progress under this young 
        woman's care. For example, she has made it her mission to teach 
        the child to walk when doctors thought this never would be 
        possible. The family sponsored the nurse's permanent residence 
        in December 2000, and due to the length of waiting times at 
        Department of Labor and USCIS, she has now fallen out of 
        status. The family worries constantly that they will lose the 
        caregiver who has become their child's salvation.

        <bullet>  Sometimes the problem involves simply getting a 
        document into someone's hands. An employment-based immigrant 
        petition was approved some months ago, but the approval notice 
        was never received by the employer or employee. They are now 
        being told that they must file an application for a replacement 
        document. The processing time for applications for replacement 
        documents is two years, which renders meaningless the approval 
        of the initial petition.

        <bullet>  The backlogs have lead to still other negative 
        consequences:

          <bullet>  Many college scholarships are available only to 
        permanent residents or U.S. citizens. A group of Kakuma ``lost 
        boys'' from the Sudan currently residing in South Dakota have 
        progressed rapidly in the United States. They could attend 
        college, but for their lack of resources. They are unable to 
        receive scholarships because of their current immigration 
        status. They may lose the opportunity altogether to attend 
        college because their permanent residence applications are 
        trapped in the backlog.

          <bullet>  Some states grant drivers licenses for only as long 
        as a person's nonimmigrant status is valid. When a person 
        applies to extend their nonimmigrant status, USCIS often goes 
        beyond the expiration date of the previous status in processing 
        the extension. The result is that the applicant loses his 
        ability to drive.

          <bullet>  Backlogs have negative impacts beyond the 
        processing of applications. The Social Security Administration 
        will not issue a social security number until the Department of 
        Homeland Security (DHS) verifies an individual's immigration 
        status. People have waited months for their verifications to 
        come through. This delay complicates not only their ability to 
        get on payroll, but also some states (like my own state of 
        Illinois) will not give them a driver's license until they can 
        show a social security number. Thus, everyday acts of living 
        are barred by backlogs at DHS.

    Clearly, the backlogs are having negative consequences for 
individuals, families and businesses throughout the country. No one 
supports these backlogs, but they now commonly occur and have grown 
exponentially over the years. The pressing issue is what efforts has 
the USCIS undertaken to eliminate these backlogs, and what can Congress 
do to facilitate their elimination.

                    IMPROVING POLICIES AND PROCESSES

    Steps in the Right Direction: USCIS recently has made some changes 
that are distinct steps in the right direction, and that we anticipate 
will help to decrease the backlogs. However, taken alone, or even 
together, they will not ``get us there'' but they certainly get us 
headed down the right road. These steps include:

        <bullet>  No readjudication of established facts. Recent 
        guidance to adjudicators instructed that, in extensions of 
        status where no facts or law have changed and there was not a 
        material error or fraud in the previous adjudication, deference 
        should be given to the prior adjudication. This is an important 
        step forward, as it complies with existing regulations that do 
        not require review of extensive documentation in these 
        circumstances and prevents adjudicators from slowing the 
        process by demanding additional documentation where none is 
        needed. It is an effective form of risk management.

        <bullet>  Storage of biometrics. For too long, every time a 
        card needed a biometric, the alien would have to return to the 
        agency to provide it, thus requiring the alien to travel often 
        long distances and using up agency resources that would be 
        unnecessary if the biometrics could have been kept on file. The 
        agency now has the capability to keep these biometrics on file. 
        This is particularly important for naturalization and permanent 
        residence applications. In order to have the necessary security 
        checks performed, the alien must provide fingerprints of all 
        ten fingers, which are then run through the FBI database. These 
        checks are valid only for 15 months. In all too many instances, 
        the fingerprints must be taken and re-taken two or three times 
        while the naturalization or permanent residence application is 
        pending. If these fingerprints are stored, then the alien will 
        not have to return to be re-printed every time, thus saving 
        resources on both sides. While the elimination of the need for 
        re-fingerprinting is not in effect yet, we look forward to the 
        day in the near future when it does take effect.

        <bullet>  Infopass. We congratulate Director Aguirre on looking 
        to his field for ideas to improve service. Some of the best 
        innovations come from the USCIS staff in the field who face the 
        everyday challenges of moving volumes of applications through 
        the system, and often come up with practical ideas to work 
        around the problems that they encounter. Infopass was one such 
        innovation. Already implemented in three of USCIS' busiest 
        districts, this on-line appointment system has, after a few of 
        the inevitable start-up glitches, proven to be almost 
        revolutionary in getting lines and appointments under control. 
        We look forward to its rollout to other offices in the coming 
        months.

        <bullet>  Case status on-line. One of the best innovations 
        USCIS has implemented has been the feature that allows 
        applicants to check the status of their cases using the 
        internet. This has undoubtedly cut the number of calls and 
        inquiries to USCIS exponentially, freeing staff for other 
        duties.

        <bullet>  Employment authorization documents. We understand 
        that, very shortly, the USCIS will publish a regulation that 
        will allow the agency to issue work authorization cards for 
        validity periods that are more in line with the actual time 
        needed, rather than the current lock-step one-year period. This 
        change will significantly reduce the number of applications 
        that must be processed, freeing personnel to process other 
        application types.
             We urge USCIS to take this initiative one step further, 
        and apply the extended validity period to travel permissions, 
        generally known as advance paroles. Ideally, the requirement of 
        an advance parole should be eliminated for persons holding 
        valid nonimmigrant visas. For those who otherwise would require 
        such permission, the permission document should be valid for as 
        long as is necessary to see the individual through the 
        underlying adjustment of status process and, better yet, should 
        be on the employment authorization card, thus necessitating 
        only one document and being contained on a more tamper-
        resistant document.

        <bullet>  Pilot programs. USCIS has, in conjunction with its 
        Ombudsman, initiated some pilot programs that could elicit 
        information about processes that would be particularly useful 
        in keeping further backlogs from developing. We look forward to 
        learning the results of these programs and to the 
        implementation of the ideas that could emerge from them.

    Changes that Have Not Helped or that Have Hurt Backlog Reduction 
Efforts: Unfortunately, not all of USCIS' initiatives have helped 
decrease the backlogs. In fact, some have been setbacks. While we 
congratulate the agency for experimenting with a variety of 
initiatives, we hope that it will recognize when a reform has failed or 
when one needs further work, and either abandon the idea or make the 
necessary changes. Some initiatives that need revisiting include:

        <bullet>  Electronic filing. The movement to e-government is 
        admirable, but care must be taken to ensure that it is not an 
        empty shell that provides no meaningful improvements. 
        Unfortunately, most aspects of the USCIS e-filing initiative 
        have had a negligible impact on the backlog and, and, with one 
        exception, show little prospect of enhancing efficiency in the 
        two-year time period in which this agency strives to bring its 
        backlogs under control. Under e-filing, forms are filed 
        electronically, but the required supporting documentation must 
        be mailed in separately and then matched with the file, itself 
        creating an additional piece of work. And, more importantly, 
        the process is just e-filing, not e-adjudication: the 
        adjudication process is manual, providing no efficiencies on 
        the processing end where it is most needed.
             The one possible exception lies in a pilot project in 
        California. The agency here is experimenting with green card 
        replacement applications filed electronically serving as a 
        conduit for direct production of the new card. We urge USCIS to 
        find other similar ways in which the electronic filing can be 
        used meaningfully, such as capturing data for the adjudicator's 
        use.

        <bullet>  Decision at first review. Here is a prime example of 
        a good idea gone bad. AILA and other stakeholders have long 
        urged USCIS and its predecessor to get under control its ever-
        proliferating volume of Requests for Evidence (RFEs), which are 
        too often multi-page, multi-item demands for documentation that 
        often were either already provided, were not relevant to the 
        application at hand, or were necessitated by the sheer length 
        of time the application had sat on the shelf. The volume of 
        RFEs has grown in recent years as adjudicators, nervous about 
        whether they might be criticized for a decision, became 
        increasingly paralyzed and chose to make a show of demanding 
        further documentation before they would approve an approvable 
        case.
             USCIS finally addressed these RFEs in a recent guidance to 
        the field. However, this guidance unfortunately may make the 
        situation worse instead of better. Failing to tell adjudicators 
        that they can go ahead and approve a case if the documentation 
        is complete, the memo instructs adjudicators to deny cases that 
        previously would have received an RFE. While this instruction 
        will make cases move faster initially, it really does no more 
        than shift parts of the primary backlog to a part of the 
        secondary backlog: the AAO. The AAO already has a backlog 
        measurable in years for some case types, and USCIS is not 
        including AAO in its backlog reduction initiative. Thus, the 
        effect of the ``decision at first review'' initiative is to 
        simply shift some of the backlog from where it is counted to an 
        office where it will not be counted. That is not backlog 
        reduction: that is hiding the backlog.

        <bullet>  National Customer Service Center. This 800 number for 
        customer service must have seemed like a good idea at the time. 
        Give people a toll-free number that they can actually get 
        through on, and improved customer service will result. 
        Unfortunately, it has not worked out that way, particularly 
        with respect to solving problems on applications already on 
        file and with respect to providing misguided and ultimately 
        harmful advice to members of the public. To its credit, USCIS 
        has acknowledged that the 800 number is not a workable means to 
        resolve problems on cases already on file, and has indicated 
        that they are working on a solution that would put the problem-
        solving process back in the hands of the USCIS-employed 
        Immigration Information Officers who have access to the files 
        and knowledge of the system. We eagerly await this solution.

        <bullet>  Outsourcing the Immigration Information Officer 
        Function. But, a current Administration initiative may serve to 
        undermine this planned solution. It is important to note that 
        the 800 number is answered by an outside contractor, and that 
        many of the problems that have developed are inherent in the 
        fact that an outside contractor is not fully trained in 
        immigration, is not fully accountable for performance, and does 
        not have access to case files. We understand that the agency is 
        soliciting bids from contractors to privatize the Immigration 
        Information Officer function. If this initiative is successful, 
        the reform of the 800 number may be rendered meaningless, as 
        these functions will again be placed in the hands of 
        contractors who lack the knowledge and information to provide 
        the service on a fully-informed basis. AILA believes that both 
        the 800 number system and the IIO function are inherently 
        governmental activities and should not be contracted out.
             We also urge USCIS to replicate what it did with respect 
        to Infopass by looking to its own field for innovative 
        solutions. In order to provide effective problem-solving on 
        already-filed applications, the California Service Center of 
        USCIS put in place an additional operational division, known as 
        Division XII, designed solely to address problems raised by 
        people with applications and petitions pending at that office. 
        It contains the right mix of people, expertise and systems to 
        deliver one of the most effective customer service solutions in 
        the field. We urge Director Aguirre to look at implementing a 
        similar approach in other offices.

    Policies that Punish Applicants for the Backlogs: Immigration 
statutes are complex and often leave areas open to agency 
interpretation. USCIS has been interpreting some statutes restrictively 
when a broad interpretation was equally possible or even the better 
interpretation. While USCIS is working toward its backlog reduction 
goals, it needs to re-think these policies so that the public is not 
punished for its own slowness. At the risk of oversimplification, here 
are three examples where other reasonable readings of the law would 
ameliorate the impact of the agency's own delays:

        <bullet>  It is too often the case that an individual will 
        apply for a change or extension of a nonimmigrant status, and 
        the initial status expires while she is awaiting action on the 
        application. After the status expires, but before the 
        application is processed, life happens, and the person, for 
        instance, gets another job offer or decides to start school, 
        requiring yet another application. But, because her initial 
        status expired, through no fault of her own, the USCIS has been 
        taking the position since April 2003 that the second 
        application can be denied because the first application was not 
        approved before it was filed. This punishes the applicant for 
        the agency's own slowness in processing the first application.

        <bullet>  The USCIS has recently changed its view and taken the 
        position that if, during the years that it takes for an 
        adjustment of status to permanent residence application to be 
        adjudicated, the applicant's work authorization lapses, the 
        applicant is no longer eligible for adjustment to permanent 
        residence if he works during the lapse. This despite the fact 
        that the lapse is usually due to the USCIS' slowness in 
        processing the work authorization application.

        <bullet>  In October 2000, Congress enacted the American 
        Competitiveness in the Twenty-First Century Act (``AC21'') in 
        order to ameliorate some of the effects of the backlogs that 
        existed even then. As no regulations have been issued, USCIS 
        offices have been interpreting this legislation on their own. 
        Some offices have followed policies that essentially eviscerate 
        the ameliorative provisions of this legislation, essentially 
        rendering them useless in the face of backlogs that have only 
        worsened since the statute's enactment.

                      OTHER PROBLEMS AND SOLUTIONS

    In addition to the initiatives that have been announced, AILA 
suggests that USCIS look at some other areas that have contributed to 
the problems and implement some additional reforms.
    Guidance and Training: We have discussed elsewhere the problem of 
adjudicator paralysis. There has been a similar paralysis with respect 
to providing adjudicators with adequate guidance and training. Not a 
single regulation on a substantive issue has been promulgated since the 
advent of the Department of Homeland Security. Yet, legislation dating 
back to 1996 and 2000 have yet to be the subject of even a proposed 
regulation. There have been some guidances to field, but they do not 
begin to touch on all of the issues involved in the body of immigration 
law that adjudicators must apply.
    Because of this lack of guidance, adjudicators are forced to come 
up with their own interpretations that they often develop in a vacuum. 
Because of their uncertainty about the law, Requests for Evidence have 
proliferated and cases are being put aside while further guidance is 
sought. The USCIS needs to overcome its policymaking paralysis, and 
issue regulations and guidance, to help its adjudicators overcome their 
decision-making paralysis.
    Secondary backlogs: USCIS must integrate into its backlog reduction 
efforts a plan to address the secondary backlogs previously addressed. 
As long as innocent applicants see their applications delayed for 
months or years beyond even the regular backlogged processing times, as 
long as RFE waits are not counted in the overall processing times, and 
as long as policies send more and more cases into a badly backlogged 
AAO, the public will view any claims of success in backlog reduction as 
disingenuous or misleading.
    All of these secondary backlogs are important, but the delays in 
the security checks are probably the most important. As Director 
Aguirre demonstrated last week, the then-INS was making progress in 
backlog reduction until September 11 brought home the utter necessity 
of implementing a strict regimen of background checks. Now that the 
checks are in place, it is vital that the agencies through which the 
checks are processed appreciate the importance of a prompt and thorough 
response. This is critical not only to ensure a timely and legitimate 
immigration process, but to enable security and law enforcement 
agencies to act immediately when a person is identified who could be a 
danger to our security. These lengthy delays are beneficial to no one: 
not to the impacted individuals, not to the agency, and not to our 
nation's security interests.
    Improve coordination: Since the formation of DHS, a number of 
issues have arisen that straddle the lines between USCIS and its sister 
bureaus, Immigration and Customs Enforcement (ICE) and Customs and 
Border Protection (CBP). We have seen in recent months some improvement 
in selected areas, such as the development of processes by USCIS and 
CBP to correct erroneous entry documents. We urge the bureaus to 
continue and intensify these efforts.

                               RESOURCES

    There is an 800-pound gorilla sitting in this room. Let's talk 
about it. No matter how many initiatives and innovations USCIS 
undertakes, in the end it's all about resources. Immigration petitions 
and applications are individual cases that require a thoughtful human 
being to consider the merits and reach a decision. No amount of 
management systems can, in the end, eliminate that factor. And the fact 
is, there simply are not enough of those human beings in place to 
accomplish the job. AILA has watched as INS Commissioner after INS 
Commissioner has been harshly criticized over the backlogs (and, 
indeed, we have done more than our fair share of the criticizing). We 
now see a USCIS Director undergo the same experience. Surely not all, 
or even a majority of, these smart, well-meaning people have been 
incompetent. Indeed, AILA has seen the opposite--competence and even 
brilliance--in these offices. But, somehow the backlogs continue.
    Perhaps it is time to see, as Julius Caesar pointed out to Brutus, 
that the fault lies not in the stars, but in ourselves. Or, as a more 
modern hero, Pogo, said, ``we have seen the enemy and he is us.'' We 
have long pretended that with a little more ingenuity and a little 
better management, the backlogs can be brought under control. Let's end 
the pretence here and now: This agency needs more money to do its job. 
And this funding needs to come from direct Congressional 
appropriations, not increased user fees.
    Over the past couple of decades, the myth has developed that 
immigration processing should be entirely funded by filing fees. The 
truth is, fee-based funding is nothing more than a giant, government-
endorsed pyramid scheme, always on the brink of collapsing under its 
own weight. Let me give just a few examples of the weaknesses inherent 
in relying on user fees to fund the USCIS.

        <bullet>  Because of the backlogs, the agency is in the 
        constant situation of using new filing fees to pay for 
        adjudication of applications filed in previous years. 
        Essentially, the agency is using new sales to purchase old 
        inventory, with no visible means to pay for the new inventory 
        that continues to come in.

        <bullet>  The Administration has requested a backlog reduction 
        budget of $140 million for the next fiscal year, ostensibly to 
        pay for this old inventory. However, this budget request is 
        illusory. In previous years, directly appropriated funds paid 
        for USCIS' overhead (fixed expenses such as file maintenance, 
        payroll functions, etc.). This amount, which this fiscal year 
        totals $155 million, is now to be paid out of the fee account. 
        Thus, far from getting an appropriations ``shot in the arm'' to 
        help the backlogs, USCIS will be losing at least $15 million if 
        the budget is passed as proposed.

        <bullet>  Paying overhead out of the fee account is a 
        particularly dangerous action and could be the factor that 
        finally causes the pyramid to fall. Overhead does not rise and 
        fall with the number of applications: it remains fixed whether 
        the agency gets one application or one million. But if, as has 
        happened in the first part of this year, the volume of 
        applications decreases,\2\ so does the income generated from 
        fees. And there is no reliable stream of income to continue to 
        maintain the fixed expenses. Overhead is an amount that must 
        come from directly appropriated funds.
---------------------------------------------------------------------------
    \2\ There was an increase in filing volume in April, but this was 
due to applicants rushing to get their filings in before a large fee 
increase took effect at the beginning of May.

    Other resource issues also plague USCIS. DHS currently is 
reportedly under a hiring freeze. Thus USCIS cannot bring in the new 
personnel needed to address the backlog. It takes considerably longer 
to bring a new agency employee on board than would be conceivable in 
the private sector or even in Congress, so the substantial lead time 
needed is being lost. And we cannot look to getting extra help from 
existing personnel, as overtime within USCIS has been severely capped 
for the year.
    Some offices of USCIS also face an imminent personnel crisis. Many 
of the adjudication positions within the agency are ``term'' 
positions--in other words, temporary positions, generally available 
only for four years. Many of these terms are now expiring--with the 
backlog no further in hand--and these experienced and trained personnel 
are departing at a rapid rate as they find steadier employment. 
Congress needs to act immediately to extend these terms or, better yet, 
convert the jobs to permanent.
    Finally, we cannot ignore another false solution that has been 
proposed: the outsourcing of the Immigration Information Officer 
(``IIO'') function. One need only look at the deeply flawed, contractor 
operated, National Customer Service Center to see that outside 
contractors do not have the knowledge, training or accountability 
necessary to deliver effective information on the complexities of 
immigration to the public. Also, the outsourcing proposal ignores an 
important role of the IIOs in many offices: they act as junior 
adjudicators, reviewing and deciding on cases. To outsource this 
function would be to further starve an already resource-deprived 
operation.
    It is well past time that Congress and the Administration gave this 
agency the resources it needs to do its job. AILA urges that a second 
look be taken at what resources are really needed, and the money be 
once and for all authorized and appropriated to do the job right.

    Mr. Hostettler. The Chair now recognizes the gentlewoman 
from Texas for the purposes of an opening statement.
    Ms. Jackson Lee. I thank the distinguished Chairman, and I 
will take this time to be very brief. Let me, first of all, ask 
unanimous consent that my entire statement be placed into the 
record.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. And let me do a minor bit of housekeeping 
on behalf of Mr. Weiner, a Member of the full Committee. Mr. 
Weiner asks these questions--
    Number one: How many additional employees would it take to 
completely reduce the backlog?
    Number two: How much would this cost?
    Number three: Are there bureaucratic obstacles to hiring 
these employees?
    Number four: Why have past plans for backlog reduction 
failed?
    I ask unanimous consent for a response by witnesses.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. Let me thank the witnesses. Each have a 
unique and special perspective to add. This has been long in 
coming. We spent time last week with Director Aguirre, and I 
know that Members could account for any number of times that 
they have been confronted with stories such as that that Mr. 
Zulkie has indicated occurred with the tragic situation of the 
woman in Rwanda.
    Right now in Houston I have two individuals who are 
presently being detained. I would suggest that their plight has 
come about because of the extensive backlog. One had been a law 
enforcement officer for 19 years attempting to access the 
process, but got awry, and finds himself in a difficult 
predicament. My point is that he worked in law enforcement for 
19 years, and so he is a contributing individual to this 
community and would like to remain here, but, of course, 
because of the backlog and delay of accessing the situation, he 
finds himself in this predicament.
    Another individual has received three degrees in this 
country and now has a 3-week-old on life support, and he, too, 
serving as a paralegal got awry because of the backlog and 
inability to access the system. There are painful stories to be 
told.
    What my concern is as we move toward this process of 
unclogging the backlog are questions of due process and 
fairness. One, if we are to unclog the backlog, and that means 
we will not waste time trying to secure lost fingerprints and 
other materials without kicking it up to the next level, is 
that a fair process, because once you kick it up to the next 
level, then you are in an appeal process, which is a slower 
process, as most realize. I am concerned that we will then 
ignore the second call to get the fingerprints and simply kick 
that incomplete file up to the next level, which makes it a 
more difficult hurdle to overcome.
    The other point I would like to make, and I will put my 
complete statement into the record, is the simple process of 
calling in numbers. I know our distinguished Ombudsman Mr. 
Khatri will be able to respond in kind to these, but I am told 
that 800-number operators can transfer calls to what we call 
the second tier, but I have also heard claims that the second 
tier officers frequently just tell callers to write a letter to 
the service center.
    Mr. Chairman, we have a lot of hard-working Federal 
employees but you can be assured when you get kicked up to the 
service centers in some of our regions, and I might mention 
that need more resources, you are going to be on a long, long 
haul trying to get through or trying to get your letter 
through.
    Mr. Chairman, I think we have found ourselves through these 
2 years circling around issues of agreement that your 
constituents, who are clearly of a different perspective than 
mine, would tend to agree with, and that is we have done some 
things in the past, and this one I hope has some common degree 
of agreement, and that is that the backlog must be approached 
head on, we must do it in a bipartisan way, and we must not 
yield to any prisoners, if you will, and we must not take no 
for an answer. And we must gear ourselves to fixing this system 
because we all are better off if the system of Government works 
better so individuals who are accessing the rules of 
citizenship and legalization can do so in a fair way.
    I yield back my time.
    Mr. Hostettler. I thank the gentlewoman.
    The Subcommittee will now turn to questions of the 
witnesses.
    Mr. Khatri, as you know, the Homeland Security Act requires 
that you send your report as Ombudsman to us ``without any 
prior comment or amendment from any officer of the Department 
of Homeland Security or the Office of Management and Budget.''
    Did you have to clear your report with any other party at 
DHS before sending it officially to Congress today, or the OMB?
    Mr. Khatri. No, Mr. Chairman.
    Mr. Hostettler. That must have been why it was here a week 
earlier, as well as your stellar work.
    I am glad that your testimony mentions your recommendations 
will ``promote national security and the integrity of the legal 
immigration system.''
    Can you expand on that as to how you believe the 
recommendations that you have made would do those two things?
    Mr. Khatri. Let me continue with the example that I cited 
of the Dallas pilot project. In that particular project, the 
pilot really seeks to eliminate the need for the interim 
benefits, the employment authorization cards, the travel 
documentation that individuals need when there is an extended 
period of processing.
    What my recommendations have done is basically taken what 
used to be a very, very long process and basically turned it 
upside down. By that I mean what USCIS is doing in the pilot in 
Dallas is basically on the day an individual files, an officer 
actually looks at the documentation and determines whether or 
not the person has filed appropriately so we do not get the 
RFEs and the additional documentation requests in the future, 
but, more importantly, on the same day the individual and their 
petitioning spouse or parent are interviewed and a 
determination is made as to whether or not they appear to have 
eligibility, which then leaves simply the security checks and 
the records checks.
    At the end of that process, what ends up happening is in 60 
days or so, most people clear security checks. Upwards of 90 
percent clear security checks within the 60-day process, the 
four different security checks that are conducted. At the end 
of that, the individual will receive their green card. What 
this does is it eliminates the EADs, the employment 
authorization documents, which today, from my background at 
Disney, I can tell you there are numerous instances where we 
used to see these documents which had been fraudulently created 
because they are old 1980's technology which basically involves 
a Polaroid camera picture. So those types of documents will 
forever not be required for most of the individuals. And for 
those few that may get stuck in the process, they will actually 
receive a better, more enhanced secure card and will be able to 
be processed. But in the meantime, the bulk or the majority of 
the people will have been processed, and that, I suggest, will 
substantially reduce first and foremost fraudulent applications 
that might have been filed for the purpose of obtaining these 
interim benefits. These people will no longer be able to do 
that. So we will be able to process people faster, more 
efficiently, and more securely.
    Mr. Hostettler. Ms. Stern and Mr. Zulkie, could you comment 
on that? It sounds like the suggestion of turning the process 
on its head may significantly reduce if not the backlog as it 
exists today, then for future applicants. Can you comment on 
what Mr. Khatri has suggested?
    Ms. Stern. Yes, thank you.
    In the commercial sector, any process that becomes more 
efficient reduces the margin of error. When there is a focused 
attention to what the project is, there is less of an aptitude 
for there to be errors, in this instance, in the Agency 
context, for there to be fraud. There is more an ability on the 
part of the adjudicator in this instance to be able to give 
thoughtful attention to each file if they are not overburdened.
    So if these projects are implemented with attention to how 
the field handles what is given to them, then they can be quite 
effective in deterring both fraud and eliminating the security 
threat.
    What I think cannot be forgotten is there are human beings 
who are line officers who will be handling these files, and 
they have to be trained adequately so that whatever 
technological help they are given, whatever new programs are 
rolled out from headquarters, are implemented in the 
appropriate fashion so there is accuracy. Thank you.
    Mr. Zulkie. Mr. Chairman, my association has worked with 
Mr. Khatri on brainstorming, if you will, on developing some of 
these pilot programs, and they are very interesting, and I 
think they do offer some promise for the future.
    Two points to remember, the pilot programs, and even if 
they spread, will not address the pending backlog, the millions 
in the pipeline. And one thing that many Congress Members may 
be concerned about is starting to hear from constituents who 
are in the backlog and not eligible to participate in these 
pilot programs. They will feel very shortchanged by this 
process, and it is something that the Administration needs to 
address through the subject of this hearing, the broader 
backlog reduction plan.
    Mr. Hostettler. Thank you.
    The Chair recognizes Congresswoman Jackson Lee for 5 
minutes.
    Ms. Jackson Lee. Mr. Khatri, the very fact that you are 
there is a breath of fresh air. I think in time the evidence of 
your work will show itself. But let me restate some of the 
frustration that occurs beyond Members' offices here in 
Congress, but just in terms of families trying to reunite, 
families trying to get information.
    I think the uniqueness of this hearing is we are talking 
about individuals who are trying to access legalization who are 
in line, and we can account for thousands. And as Director 
Aguirre said last week, he counts 3 million, and we have been 
using the number 6 million. That number is still looming large, 
the 6 million.
    Mr. Zulkie, one of the issues that you comment on in your 
report is limited case status information. That piques our 
frustration. What will be your role with respect to ensuring 
that people have a better access to case status information?
    And this goes from the most minute simple question which it 
seems like someone can get to a more complicated one. I imagine 
the billable hours Mr. Zulkie's organization spent on phone 
lines calling for a simple inquiry to make his great clients 
think it is good to have counsel because finally I have gotten 
an answer. What are we doing to eliminate the frustration and 
wrongness of not being able to access your own information?
    And I will also raise this question: Last week I posed a 
question which I intend to pose which is whether or not we need 
more resources. I know you did not come here as a legislator or 
appropriator, but in the vastness of your knowledge and 
Members' knowledge across the country in reaching out to 
various resources, and when I say resources, service centers 
and local offices, would you think that we could solve this 
backlog with what seems to be the present level of funding? Or 
would you believe in order to reorder what we are doing, 
possibly to secure new staffing or training, that we would need 
new resources?
    And I throw another question in, and then I will yield. Are 
you satisfied with the present regional structuring of where we 
place centers so that someone, as I understand it, in New 
Orleans may have to travel to get to an office or central 
office? Obviously, those of us in Houston are traveling 
somewhere. Are you satisfied with that? And I yield to the 
distinguished gentleman for his questions.
    Mr. Khatri. Thank you, Ms. Jackson Lee.
    In addressing your concern regarding the access and the 
ability to find out about the case status, obviously that is an 
important issue, and we are really concerned. We are as 
concerned as everyone else is about the 800 line and its 
inabilities to answer the questions of individuals. Our office 
has taken a keen interest in that.
    We will hopefully in the coming weeks come up with some 
very specific recommendations, and we are hoping that USCIS, as 
they have done for our other three recommendations, will take 
them seriously and will give due consideration and implement 
hopefully right away because that may not require a pilot.
    Mr. Zulkie. Thank you, Ms. Jackson Lee. The first question 
in the list for me is the determination of whether or not the 
resources the Administration proposes to allocate are adequate. 
In our opinion they are not. A recently published study by the 
Government Accounting Office on USCIS backlogs made a finding 
that USCIS does not really know what it costs them to process 
an individual application or petition, and USCIS agreed with 
that finding.
    So now we have a situation where there is a plan laid out 
there, but there has been no analysis of how many people hours 
will it take to reduce this backlog within the time frame that 
Director Aguirre says it can be done. The Director suggests 
there will be some interesting and helpful information 
technology improvements. We would certainly welcome them. 
Again, there has been no real analysis that we have seen as to 
what that will cost or where the money will come from.
    Respectfully, what we would suggest perhaps is that this 
Committee mandate the Government Accounting Office to do a 
follow-up study: What does it cost the USCIS to process all of 
its applications and petitions today? What do they think or 
project it will cost to process those applications and 
petitions 1 year from now, 2 years from now when a number of 
efficiencies and the pilot programs are more widespread? What 
will the new information technology cost?
    And a related issue, and this relates to the questions you 
read into the record earlier from your colleague on the 
Committee, are there obstacles to hiring new people? What is it 
going to take to get new people on board?
    Well, there are a couple of obstacles. First of all, we 
have seen media reports that there is a hiring freeze at the 
Department of Homeland Security. I don't think that has been 
officially confirmed by the Department. I am only going on the 
media reports, but if there is, that makes it difficult to add 
more people to process cases.
    There is the other problem of background checks that are 
performed on Federal employees. We have heard anecdotally from 
managers in offices that it is taking 6 to 12 months and in 
some cases more than a year to get the appropriate background 
clearances before an individual can be hired. It seems to me 
that is going to make it fairly difficult to get quality people 
to take those jobs.
    Back to the issue of case status and accessing information, 
the 800 number, while it seemed like a good idea when they 
rolled it out, unfortunately has not worked out very well. We 
believe the principal reason it has not worked out is because 
the system was contracted out to a nongovernmental entity; and, 
unfortunately, the individuals who performed this job just are 
not trained in immigration law, and the system is really not 
set up to deal with pending cases. It works well if you are 
calling to get a form number or an address of what office to 
send it to, but it does not work well to get information on 
cases.
    We have suggested with pending cases there be an automatic 
referral to the service center where a trained Immigration 
Information Officer can answer the question. They have access 
to the file, and they are trained. Yet, in my final statement 
on this, the Administration has proposed to outsource or 
contract out the Immigration Information Officer position, 
which I believe the House voted against the other day. In our 
opinion, philosophies aside, it just will not work sending it 
out to a private contractor. It has been a failure with the 800 
number, and the IIO function, if it is contracted out, will 
reinforce that failure.
    Ms. Jackson Lee. If I might be indulged an additional 30 
seconds, Chairman, I think, will allow me to say we voted 
together in opposition to that position of outsourcing, and we 
might be able to join with each other on the idea that you have 
now suggested maybe about an additional review about cost. We 
may ultimately disagree on whether we should move forward. I 
would say we should; the Chairman may say not. But I think the 
facts would be helpful to him and this Committee as to what the 
cost actually is, an independent assessment of what the cost 
is, because we are all in agreement that a backlog does not 
help anyone.
    Certainly whatever position you happen to take on this 
question you might want to provide me in writing unless you 
have one sentence to answer about the way we have this system 
set up, like the centers that I mentioned in Memphis and Texas. 
And I will close on this note just to thank you, Mr. Zulkie, 
for the excellent staff that you have visiting with us all the 
time. I can assure you that they are both informed and 
bipartisan. We look forward to working with you.
    Mr. Zulkie. Thank you. That is very kind of you.
    Mr. Hostettler. The Chair recognizes Mr. King of Iowa for 5 
minutes.
    Mr. King. Thank you, Mr. Chairman. I thank the witnesses 
for their testimony today.
    Ms. Stern, I point out in your testimony words to the 
general effect of ensuring timely processing for legals and 
then this quote, ``barring those who pose a threat to our 
populace.'' Would you entertain amending that to ``barring 
those who would not have legal access''?
    Ms. Stern. Absolutely. Obviously folks who are not eligible 
for benefits also should be denied benefits.
    Mr. King. Thank you. Just a little cleanup thing that 
lingered in my mind.
    Mr. Zulkie, the President gave a speech on January 6 
calling for a program that would expand the number of guest 
workers, was the term he used, and the public has used a far 
different term to define that program. There are varying 
estimates, between 8 and 14 million illegals in this country, 
some of whom would be processed if that program were approved. 
We sit here with a significant backlog which we have 
significant concern about. Should there be a program, a guest 
worker program, approved that may be legalized in some fashion 
or another, 8 million of those workers? What do you think the 
impact of that would be to the backlog?
    [5:45 p.m.]
    Mr. Zulkie. Thank you, Congressman. If the Congress were to 
pass such legislation and it was signed by the White House, I 
think it is obvious to everyone that the existing resources 
provided to USCIS could not possibly take that on. 
Realistically, the Congress would have to appropriate funds 
either for additional resources for USCIS to handle it, or 
perhaps as occurred in 1986, there was a freestanding separate 
unit or units around the country that just processed what was 
called the amnesty applications outside the then-INS benefit 
processing system
    Mr. King. If we had a freestanding organization like that, 
do you believe that could be funded by employers and guest 
workers?
    Mr. Zulkie. That is a decision for Congress to decide. 
Potentially, yes, it could; or it could also be a unit that is 
separate from USCIS, or under its auspices, but unique and 
freestanding.
    Mr. King. Then with regard to national security, do you 
think that that type of a program could risk lowering the bar 
for national security?
    Mr. Zulkie. Quite the contrary. I think it would enhance 
our national security, because we do not believe--with the 
number of people that you cite who are possibly here who are 
not documented, it is much better we know who is here. Every 
one of these individuals would be subject to a FBI, CIA 
background clearance and no doubt some people would not pass 
muster. And I think we would rather know who is here and give 
them identity, let them come forward and do the jobs that we 
need them to do, take care of our grandmothers in the nursing 
homes and take care of our children, and our security is much 
better off knowing who they are.
    Mr. King. Aside from the concern that if we set up a 
separate entity to deal with this, you still have to have the 
background checks that would have to grow, then, our FBI and 
security people to do those background security checks. Once 
again we end up with an administrative problem that is 
compounded by this issue.
    I will just address the issue of the bogus petitions that 
was testified to by Mr. Aguirre last week; that the bogus 
petitions, maybe as many as 40 percent of them--of the 
petitions are bogus. Do you believe that we can streamline this 
process if we could increase the punishment on bogus petitions 
and clean them out of the system and disincent those in the 
process?
    Mr. Zulkie. Director Aguirre's testimony to that effect is 
the first time that we have ever heard any USCIS official use a 
number like that. And we find it fairly hard to believe that 40 
percent of the petitions are fraudulent, particularly given the 
small level of enforcement or prosecutions undertaken by the 
Government. Let me add that simply because a petition is 
pending before USCIS, that in no way precludes the relevant law 
enforcement agencies from either pursuing criminal prosecution 
or removal of an individual from the United States.
    Mr. King. Thank you. And time moving along here, I turn to 
Mr. Khatri; and that is, there has been a request made here for 
more money and more resources, not from fees, but from the 
general fund presumably. And I know that Mr. Aguirre testified 
last week that he had enough resources, he needed to use more 
innovation and more ideas and streamline that. And I am asking 
this softball question today, because you brought your family 
along and I think I will take it a little easy on you. So could 
you answer that question before time runs out?
    Mr. Khatri. As regards the USCIS funding issue, I believe 
Director Aguirre is the word on that. If he stated, as he 
clearly did, that they do have sufficient funding, I believe 
they do and we should give them a chance to show that they do. 
I cannot dispute that. I don't run his organization. He has 
access to all of the records and I believe he did testify that 
he does have sufficient funds.
    Mr. King. And some of the innovation that you brought 
forward here today is some of the innovation he was 
referencing?
    Mr. Khatri. Yes. That will assist in helping. Now, 
obviously one of the things that some of our recommendations 
will do is clearly reduce substantially the number of filings 
that are required for interim benefits, and that will be a 
reduction in the fees. And this is where I think we will have 
to work with Congress to figure out if there is a better way. 
Maybe there is a way to fund the system much like a private 
entity. If we are expecting USCIS to run like a private entity 
from its own fees, I would think that we may want to consider, 
as we do for any organization coming out of bankruptcy or from 
a reorganization, as you will, that we do provide funding and 
maybe we do create a pool of money for USCIS to draw from, so 
that they don't have to be in a constant position of predicting 
how many applications are going to come, especially with the 
innovations and the resources that we are bringing to the table 
where we are actually, hopefully, going to eliminate many of 
the applications that are required and thus will cause a 
shortfall in the permanent funding of USCIS.
    So, long term, yes, I do believe that Congress will have to 
work with USCIS in finding--maybe, you know, the best thing 
would be a replenishable fund that can be replenished annually.
    Mr. King. I thank the witnesses and the Chairman, and I 
yield back.
    Mr. Hostettler. I thank the gentleman.
    The Chair reminds Members that we have 7 legislative days 
to make entries into the record.
    I want to thank Members of the panel for your insightful 
testimony. It will be very helpful in this process. And this 
Subcommittee will take your testimony to heart as well as apply 
it to our future actions.
    Before I adjourn the Subcommittee, in keeping with the 
theme of embarrassing attendees, I just discovered that Vlad 
Cerga, who is our Committee's technical aide in the left corner 
of the room here, has passed his naturalization exam today. So 
we commend you. I am happy to announce that the Subcommittee is 
doing all we can to help reduce the backlog.
    [Whereupon, at 5:50 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

        Backlog Elimination Plan submitted by U.S. Citizenship 
                        and Immigration Services

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress From the State of Texas, and Ranking Member, 
        Subcommittee on Immigration, Border Security, and Claims

    I have a personal interest in eliminating the immigration benefits 
applications backlog. Houston's backlog on benefits applications is one 
of the longest in the country, longer than in Boston, Los Angeles, and 
San Diego. Approximately 50,000 people in the Houston area are waiting 
for the processing of an immigration benefits application. For some, 
the wait has been as long as five years.
    Bianca Springer has a graduate degree in conflict analysis and 
resolution. Last week, as she and her husband, Jerry, sat in an office 
of the U.S. Citizenship and Immigration Services (USCIS), she said that 
she should have pursued a degree in bureaucracy. She has been trying 
unsuccessfully to resolve issues around her immigration application 
since moving to Houston from Miami 18 months ago, where she originally 
filed the paperwork. She sees no end in sight. She has not even been 
able to confirm that her files are at the Houston office.
    People also are experiencing difficulty in learning about the 
status of their applications. Suliman Al-Rasheed is a retired executive 
with Saudi Aramco, an energy company. In 2002, after taking an early 
retirement, he moved from Saudi Arabia to Houston with his wife, who is 
a U.S. citizen, and their infant son. Two years and more than $7,000 
later, he still doesn't know his status. He has asked, ``I want to 
start a business, am I going to be approved or not? Shall I pack up my 
family and go, or stay?''
    New York is another place that is having serious backlog problems. 
The backlog of pending citizenship cases in New York exceeds 100,000, 
which is more than in any other district in the country.
    A letter summoning Errol Taylor to be sworn in as a citizen on May 
14 arrived at his Flatbush home more than a year after his interview 
and two years after he had applied for citizenship. This was too late 
for Mr. Taylor, a hospital worker who lived and worked in Brooklyn for 
decades after leaving Trinidad in 1975. He died in March.
    The costs and consequences of the delays go beyond personal 
heartache. Businesses that rely on foreign professionals are facing 
logistical headaches and added legal costs to maintain their 
workforces. Family members sponsoring a relative have died while the 
process dragged on. Some immigrants have inadvertently lapsed into 
illegality because work permits or other papers have expired.
    Part of the problem is that additional security checks have been 
implemented in reaction to 9/11. Before 9/11, the government only ran 
security checks on some kinds of immigration applicants, such as those 
seeking citizenship. Now, every applicant must undergo security 
screening, which has caused the workload to balloon. Also, matches on 
FBI name checks cause substantial delays when paper files must be 
checked to determine whether the benefits applicant is the person in 
the FBI files. While name matches only occur in a small percentage of 
the applications, the total number of affected cases is substantial.
    We also have seen a rise in the number of applications. FY2001 was 
the peak year for the number of immigration and naturalization 
petitions filed (7.8 million). Although the numbers have dropped 
somewhat in FY2002 and FY2003, the 7 million petitions filed during 
each of these periods exceed the levels of the late 1990s. For the 
current year, as of April 2004, a total of 3.5 million immigration and 
naturalization petitions have been filed.
    I am optimistic that lengthy processing delays will soon be a thing 
of the past. Under the leadership of Director Eduardo Aguirre, Jr., 
USCIS has developed a plan for reducing the backlog and bringing 
processing times down to no more than 6 months. Mr. Aguirre is 
aggressively working to modernize the processing system so that it can 
process benefits applications more quickly without compromising 
national security, and he has pledged to see that USCIS personnel treat 
everyone with dignity and respect. This is not surprising in view of 
the fact that he came to the United States as an immigrant himself. He 
has first hand knowledge of the difficulties that immigrants can face 
in our country. I am anxious to hear his statement on the details of 
the plan that he has developed to achieve these objectives. Thank you.

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
                 Congress From the State of California

    Chairman Hostettler and Ranking Member Jackson Lee, thank you for 
holding this very important hearing to discuss a serious problem that 
affects our constituents all across the country. I would also like to 
thank Citizenship and Immigration (CIS) Services Director Eduardo 
Aguirre for joining us today to help us understand the petition backlog 
problem that has long plagued the former Immigration and Naturalization 
Services (INS) and now the CIS.
    Since I became a member of the Subcommittee on Immigration, I have 
tried in many ways to work with the former INS and now with the CIS to 
find ways to eliminate the backlog and create a system that could 
seamlessly adjudicate immigration petitions in a timely fashion. Each 
time, I have run into what appears to be unnecessary roadblocks.
    In my latest attempt, 44 bipartisan Members of Congress from 18 
states, including my colleagues in the Subcommittee on Immigration, 
Representatives Blackburn, Flake, Hart, Berman and Sanchez wrote to 
you, Director Aguirre, indicating the severity of this backlog problem.
    In my home state of California, United States citizens have been 
separated from their spouses, parents, and even their children for at 
least a year just because of the backlog. It's worse in Nebraska and 
Texas where the wait is at least one and half years. United States 
companies seeking individuals with extraordinary ability have to wait 
between one to two years. These are scientists and researches with 
Nobel Prizes who will invent the cure for cancer or develop the next 
new technology to help our country lead in areas of research, science, 
and technology.
    We have reached the twenty-first century, but our immigration 
services are still functioning in the twentieth century. CIS is 
operating on a paper-based system that is completely inefficient. Yet, 
the technology is available today to bring our immigration systems up 
to speed with the rest of this country. We continue to issue millions 
of paper I-94's making it virtually impossible to enter that 
information in appropriate databases. We have no biometric standard to 
help us secure the identification of immigrants and to provide a much 
more accurate system of cataloging immigration petitions. We have not 
been able to consolidate our databases to eliminate duplication, 
inefficiency, and more importantly, to help us identify those that seek 
to do us harm.
    You can imagine my frustration with this inept system. Fixing 
immigration services must not only be a priority, it must be 
accomplished. As you know, each one of these backlogged petitions 
represents a United States citizen simply asking our government to 
allow them to be near their loved family member, or a United States 
company trying to bring in highly-qualified researchers, scholars, and 
other necessary employees. Every day that goes by with this backlog is 
another day lost with a loved one or another day where a United States 
business is unable to have a complete workforce that enables a strong 
American economy.
    I look forward to this hearing and hope that this will finally be 
the turning point towards efficient, accurate, and secure immigration 
services.
       Letter to U.S. CIS Director Eduardo Aguirre submitted by 
                       the Honorable Zoe Lofgren

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Prepared Statement of the Honorable Linda T. Sanchez, a Representative 
                in Congress From the State of California

                              INTRODUCTION

    I'd like to thank Chairman Hostettler and also Ranking Member 
Jackson Lee for today's hearing. The issue that we are examining today, 
the immigration backlog and its detrimental impacts, is an issue that 
my Democratic colleagues and I have said over and over again it 
critical to fixing our broken immigration system.
    We made backlog reduction one of the top priorities of the SOLVE 
Act (H.R. 4262), that we introduced on May 4th. And I urge the Chairman 
will follow up this hearing on reducing the immigration backlog with a 
markup of the SOLVE Act, so we can make immigration backlog reduction 
the law.
    We need to reduce the immigration backlog because the processing 
delays are keeping immigrant families apart for years, sometimes 
decades. Thousands of immigrants follow the rules and submit their visa 
applications like they're supposed to, only to end up waiting for years 
to reunite with their spouses, children, or parents because of the 
backlog. One of the main reasons why immigrants come here illegally is 
to reunite with members of their family. Simply put, the visa backlog 
is one of the main causes of illegal immigration in this country.
    And what is the Administration doing about the backlog problem? If 
you've read the papers lately, you'd think their solution was to 
perform random immigration sweeps.

                          STORIES ABOUT SWEEPS

    Last week, there were several newspaper reports that more than 200 
immigrants were arrested in the Inland Empire in Southern California. 
According to reports federal agents were interrogating and arresting 
immigrants outside supermarkets, outside restaurants, as they got off 
buses on their way to work, and they were even stopping cars at 
roadside checkpoints.
    Any person of Hispanic appearance or descent was a target of the 
sweeps. The agents stopped a Pasadena City College student, legally in 
the U.S. on a student visa, and interrogated him on the street about 
his immigration papers. The agents then drove the student to his home 
and forced him to produce his student visa papers to prove he was 
legal. In another incident, a latina waitress named Lourdes Rangel, a 
U.S. citizen, witnessed men in white vans stopping cars and 
interrogating drivers. Some of the agents questioned her and demanded 
she show them proof of her citizenship.
    These extreme and senseless arrests do nothing to fix our 
immigration system. The only thing they do is to create fear and panic 
in our local communities. A school in Pasadena reported that 30% of the 
students skipped school. Restaurants, stores, and doctors offices were 
empty last week. Many said they were inundated with calls asking if it 
was safe to come and buy food and clothes or get medical care.
    The sweeps were obviously based on racial profiling and not on any 
evidence that the victims were in the country illegally. The U.S. 
Bureau of Customs and Border Protection claims the sweeps were neither 
racial profiling nor an agency-wide policy. But I find it hard to 
believe race didn't play a factor in the interrogations when 90% of the 
arrests were of Mexican nationals. MALDEF is investigating the sweeps 
to see if the sweeps violated the victims due process rights or were 
unreasonable searches and seizures.

          FAILED ADMINISTRATION EFFORTS TO REDUCE THE BACKLOG

    Constitutional violations and random race-based arrests are not the 
way to deal with illegal immigration. The Administration's $500 million 
initiative to reduce the visa backlog to 6-month processing time by 
2006 is an excellent idea, and I urge the President and his 
Administration to make sure this idea becomes a reality.
    Likewise I urge the President to give the same priority to backlog 
reduction as he does to efforts to deport hard-working, law-abiding 
immigrants. The last time Mr. Aguirre testified before this 
Subcommittee we discussed how only $60 million in additional funds were 
proposed for backlog reduction in the President's DHS FY 2005 budget 
proposal. This sum paled by comparison to the $281 million for 
``enforcement'' programs in the President's budget proposal.
    We need to make visa backlog reduction a much higher priority. 
There are 6 million visa applications waiting to be processed. That 
equates to millions of separated families, and the possibility for 
millions of immigrants to fall into illegal status. Processing these 
applications in a timely way is just as important as enforcement 
efforts to fixing our immigration system and making our borders safe 
and secure.
    I hope that this time next year, Mr. Aguirre is testifying before 
this Subcommittee and telling us how successful the reduction plan is, 
that the backlog has already been dropped by 50%, and will be at zero 
in 2006.

                               CONCLUSION

    Again, I thank the Chairman and Ranking Member for convening this 
hearing. I also thank our witnesses for taking the time to come here 
and give us their testimony about how to fix the visa backlog problem.
    Mr. Chairman, I am working on a letter to President Bush and 
Secretary Ridge expressing concern about the immigration sweeps in Los 
Angeles. The letter will be completed shortly and I ask unanimous 
consent to submit that letter, as well as a letter from the 
Congressional Hispanic Caucus addressing the same issue, into the 
record for this Subcommittee hearing.
    Thank you and I yield back.

    Letter to President George W. Bush and the Honorable Tom Ridge, 
   Secretary, U.S. Department of Homeland Security, submitted by the 
                       Honorable Linda T. Sanchez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Letter to Robert Bonner, Commissioner, Bureau of Customs and Border 
  Protection, U.S. Department of Homeland Security, submitted by the 
                       Honorable Linda T. Sanchez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Prepared Statement of the Honorable Steve King, a Representative in 
                    Congress From the State of Iowa

    I make these remarks in response to the opening statement of the 
gentle lady from California, Ms. Sanchez, in the Subcommittee on 
Immigration, Border Security, and Claims Hearing on Immigration Backlog 
on June 16, 2004.
    I wholly support an immigration policy designed to enhance the 
economic, social and cultural well-being of the United States of 
America. Immigrants have made, and will continue to make, a valuable 
contribution to our nation. The values shared by our civilization, 
founded on a heritage of western civilization religious freedom and 
free enterprise capitalism, serve immigrants and native-born alike.
    As a sovereign nation, we must control our borders. We must ensure 
that terrorists do not infiltrate the United States. We must tighten 
and strengthen border control efforts so that illegal aliens do not 
enter our country. Perhaps most our important, yet most neglected duty 
is the enforcement of our immigration laws in the interior of our 
country.
    Ms. Sanchez stated that, after a recent immigration sweep in which 
over 200 illegal aliens were arrested, the supermarkets, restaurants, 
and doctors offices were empty, and that thirty percent of students in 
a school in Pasadena were absent from school. I must admit, I am a bit 
baffled about the point of Ms. Sanchez's story. If people are in our 
country legally and have the proper, required documentation, they 
should have no fear of immigration law enforcement efforts. If, by 
chance, they are improperly deported, as Director Aguirre explained, 
they would be the first allowed to reenter. In reality, however, we all 
know how long deportation proceedings last and how many opportunities a 
legal immigrant would have to prove his or her legal status before 
being deported.
    Ms. Sanchez set forth the argument that recent interior enforcement 
in her home state of California has been based solely on racial 
profiling, not on any evidence that those who are stopped were in the 
country illegally. Here is how I see this situation: Our immigration 
policy exists to distinguish between those who are American citizens or 
those who are in our country legally and those who are not. Asking 
those who are or appear to be of another nationality to prove their 
legal status is not racial profiling--it's smart law enforcement and it 
protects our nation's security.
    In order for our immigration laws to have any effect, illegal 
aliens must know, in no uncertain terms, that we intend to enforce 
those laws. If caught, no matter how, they will be deported as soon as 
possible. Legal immigrants who have the proper documentation have 
nothing to fear from our system.
    I hope that this Congress will be vigilant in our oversight of the 
enforcement of existing immigration laws and make necessary changes to 
existing laws. Thank you.

                               __________
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress From the State of Texas, and Ranking Member, 
        Subcommittee on Immigration, Border Security, and Claims

    We had a hearing on the backlog of immigration benefits 
applications last week at which the Director of the U.S. Citizenship 
and Immigration Services (USCIS), Eduardo Aguirre, Jr., presented a 
Backlog Elimination Plan. Today, we will hear about how the backlog 
affects people who are waiting for applications to be processed, and we 
will hear views on the Backlog Elimination Plan. Also, the Citizenship 
and Immigration Services Ombudsman, Prakash Khatri, will present the 
first Ombudsman's Annual Report. His office is a separate entity within 
the Department of Homeland Security (DHS). The benefits applications 
backlog is one of many issues that his office addresses.
    As of the end of 2003, USCIS had more than 6 million benefits 
applications. It would not be appropriate to consider all of these 
applications backlog cases. USCIS defines ``backlog cases'' as 
applications that have exceed their cycle time. A ``cycle time'' is the 
number of months that an application should take to process. The cycle 
time for a naturalization application or an application for adjustment 
of status is 6 months. Other applications have shorter cycle times, but 
none has a cycle time that is longer than 6 months. Using this 
definition, USCIS calculated that the backlog at the end of 2003 was 
approximately 3.7 million cases.
    In order to eliminate this backlog, USCIS plans to re-engineer and 
automate workflow processes to achieve greater efficiencies; update 
policies and procedures to streamline adjudications and increase the 
percentage of cases completed at initial review by an adjudicator; 
manage production against milestones; and, work with the Office of the 
Ombudsman on pilot projects to test alternative processing approaches 
and new applications of proven off-the-shelf technology. According to 
Director Aguirre, USCIS will eliminate the backlog by the end of 
FY2006.
    Director Aguirre has assured us that he will include quality 
controls in implementing the Backlog Elimination Plan. I think that it 
is particularly important to ensure that the increased attention to 
production rates does not adversely affect the quality of initial level 
decision-making. I would not like to see an increased need for 
appellate review on account of hastily rendered initial decisions.
    The milestone system is one of the most important parts of this 
plan. USCIS will set these production goals for measuring its progress 
and issue quarterly reports on whether the goals are being achieved. I 
am hopeful that these evaluations will be effective in keeping the plan 
on track. I have some concerns, however, about what USCIS will do if 
the milestones are not reached. It takes time to obtain additional 
resources. For instance, if USCIS needs additional personnel, it will 
have to recruit and train new personnel before they can help in 
eliminating the backlog.
    I also am concerned about the difficulty that people are having in 
getting information about their benefits applications. Prior to June 9, 
2003, calls could be made to immigration officers at Service Centers to 
ask questions about the status of cases, to clarify and correct 
problems, and to inquire about filing procedures. Now, inquiries are 
made through an 1-800 number system. This system does not provide a 
meaningful source of information. As outside contractors, the 800 
number operators usually are unfamiliar with immigration laws and 
procedures. They are given very basic scripts from which to field 
calls, and they only have access to information already provided on the 
USCIS website's case status inquiry pages.
    The 800 number operators can transfer calls to a Second Tier 
information officer, but the operators are restricted as to the types 
of cases that they can refer to the Second Tier. Also, I have heard 
claims that the Second Tier officers frequently just tell callers to 
write a letter to the Service Center.
    I urge USCIS to work with the Ombudsman, Mr. Khatri, to develop 
other solutions. For instance, my office has heard considerable praise 
for a division within the California Service Center that is devoted 
exclusively to answering public inquiries about pending cases and 
helping to resolve problems.
    Thank you.
   Letter from the American Immigration Lawyers Association (AILA), 
                        submitted by Paul Zulkie

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Letter to the Honorable Eduardo Aguirre, Jr., Director, Bureau of 
 Citizenship and Immigration Services (BCIS), submitted by Paul Zulkie

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Response to Questions submitted by Rep. Anthony Weiner to 
                      the Honorable Prakash Khatri

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Response to Questions submitted by Rep. Anthony Weiner to 
                          Ms. Elizabeth Stern

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Response to Questions submitted by Rep. Anthony Weiner to 
                            Mr. Paul Zulkie

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
